Office of Inspector General
Semiannual Report to Congress




 October 1, 1997 – March 31, 1998
                                         FOREWORD


                         It is my pleasure to submit the semiannual report on the activities of
the Office of Inspector General (OIG) for the period ended March 31, 1998. This
semiannual report is being issued in accordance with the provisions of the Inspector General
Act of 1978, as amended.

OIG audits, investigations, inspections, and reviews identified over $334.4 million of actual
and potential monetary benefits and resulted in 57 convictions and 135 administrative actions
during the reporting period. OIG oversight of VA's major program areas resulted in systemic
improvements and increased efficiencies in the areas of procurement, medical care, benefits,
facilities management, and financial management. A particularly noteworthy accomplishment
was the completion of 31 preaward reviews of Federal Supply Schedule contract proposals from
vendors of health care items. These reviews, designed to assist VA contracting officers in
negotiating the best possible prices, made recommendations that may save VA $216 million.

The OIG continues to strive to provide the best possible coverage of VA programs and activities
within available resources. However, the decline in appropriated dollars over the past several
years has made it increasingly difficult to provide an acceptable level of oversight. Staffing
levels for the OIG are currently far below the statutory floor of 417, which I believe was
established as the minimum staffing level needed to provide an acceptable level of oversight over
the second largest Department in the Federal government. Continued funding below the statutory
floor, combined with the ever growing requirement to perform mandated work, creates oversight
vulnerabilities for the Congress and VA.

For the VA to be considered a world class organization, it must have the independent, synergistic
support of a properly staffed OIG. While I recognize that the competition for available dollars is
strong, I see an increase in OIG resources as an investment in VA and the veterans we serve.
For example, during the past five years the OIG provided a ten-to-one return on investment ratio.
Over the past three years the OIG recovered its budget in actual dollar returns.

I look forward to working with the Secretary and the Congress in improving service to our
nation's veterans.

(Original signed by)

RICHARD J. GRIFFIN
Inspector General
                                          TABLE OF CONTENTS

                                                                                                              Page

EXECUTIVE OVERVIEW ...............................................................................               i

SUMMARY OF OIG OPERATIONS ..................................................................                    v


I.     SIGNIFICANT OPERATIONAL ACTIVITIES
             Procurement Programs ......................................................................       1-1
             Medical Care Programs .....................................................................       1-6
             Benefit Programs .............................................................................   1-17
             Facilities Management .......................................................................    1-25
             Financial Management.......................................................................      1-28
             Employee Integrity and Other Issues .....................................................        1-30

II.    OTHER SIGNIFICANT OIG ACTIVITIES
           Hotline .......................................................................................     2-1
           President’s Council on Integrity and Efficiency .........................................           2-4
           Review and Impact of Legislation and Regulations .....................................              2-5
           OIG Management Presentations............................................................            2-5
           OIG Congressional Testimony .............................................................           2-5
           Freedom of Information/Privacy Act/Other Disclosure Activities....................                  2-6
           Obtaining Required Information or Assistance ..........................................             2-6

III.   FOLLOWUP ON OIG REPORTS
           OIG Role and Responsibility ...............................................................         3-1
           Resolution of OIG Recommendations.....................................................              3-1
           Summary of Unresolved and Resolved OIG Audits ....................................                  3-2

IV.     VA AND OIG MISSION, ORGANIZATION AND RESOURCES .....................                                   4-1

APPENDIX A -              REVIEWS BY OIG STAFF

APPENDIX B -              CONTRACT REVIEWS BY OTHER AGENCIES

APPENDIX C -              CONTRACT AUDIT REPORTS FOR WHICH A CONTRACTING
                          OFFICER DECISION HAD NOT BEEN MADE FOR
                          OVER 6 MONTHS AS OF MARCH 31, 1998

APPENDIX D -              REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL
                                    EXECUTIVE OVERVIEW

This semiannual report highlights the activities and accomplishments of the Department of Veterans
Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended March 31, 1998. During
this reporting period, 111 audit, review, and inspection reports were issued and 125 investigations were
closed. These initiatives identified actual and potential recoveries of $16.4 million and made operational
recommendations which could result in better use of an estimated $318 million. In addition, as a
deterrent to fraud, waste, and mismanagement, our investigations and other reviews resulted in 35
indictments, 57 convictions, and 135 administrative actions against third parties, VA employees, and
benefit recipients.

Our audits, reviews, inspections, and investigations this period focused on VA's major program areas, as
summarized in the following paragraphs.

                                  PROCUREMENT PROGRAMS

                                    We completed 31 preaward reviews of Federal Supply Schedule
   Reviews of FSS Proposals         (FSS) proposals from vendors of healthcare items. We made
                                    recommendations to VA contracting officers totaling $216 million.
                                    These reviews assist contracting officers in negotiating the best
possible prices for FSS users.

                                  VA will recover over $5.6 million due to our identification of
    Contractor Overcharges        overcharges by FSS companies.


                              We audited VA’s procurement initiatives for computer hardware and
  Contract Management         software, and the procurement of automated information resources
                              solutions. We found VA addressed the most significant lessons learned
                              from past contracts, however better management will reduce costs by $58
million, in part by enhancing contracting initiatives to meet expectations of the Clinger-Cohen Act.
Also, our audit of the pharmaceutical prime vendor program found internal controls were adequate;
however, responsibilities needed clarification.

                                  MEDICAL CARE PROGRAMS

                    This requested audit concluded that the Civilian Health and Medical Program of
  CHAMPVA           VA was generally well-managed and controls over this $98 million program were
                    effective. However, reviewing certain claims paid in prior years and pursuing 3rd
                    party liability could increase recoveries by $4.5 million.

                  We found the Pathology and Laboratory Medicine Service’s Workload Reporting
  Data Validity   System was accurate, but incomplete. A total of 105 million laboratory tests were
                  reported accurately, but 7 million tests were not reported because some VA
                  facilities did not report or reported sporadically. We made recommendations to
improve workload reporting.

                                                    i
                         We conducted three health care program reviews: (i) Our assessment of
   Program Reviews       Veterans Health Administration’s (VHA’s) quality management (QM) process
                         concluded VHA managers have dramatically revised and in many ways
                         strengthened the process, but need to strengthen, coordinate, and consolidate
QM programs; (ii) Our review of VHA’s expansion of Advance Practice Nurse functions supported
VHA's initiative, but we cautioned managers to strengthen credentialing and privileging procedures and
quality oversight; and, (iii) Our evaluation of the National Customer Feedback Center concluded
patient survey questionnaires accurately capture impressions of their treatment process, but feedback is
slow.

                                    Our Quality Program Assistance reviews at five VA medical centers
   Quality Program Assistance       (VAMCs) found that managers are working to ensure that veterans
                                    have access to high quality, low cost health care. Employees
                                    generally support the changes, but the rapid pace is negatively
affecting employee morale.

                                The following reviews concluded, even though no patients were
   Patient Care Inspections     harmed, that managers could improve patient care by correcting certain
                                employees' practices and behaviors: (i) A nurse committed a
                                medication error by administering a drug without a written order and a
physician prescribed a medication without apparent justification; (ii) Nursing employees did not
consistently record medical information, raising the potential for treatment errors to occur; (iii) Clinical
employees improperly discharged a nursing home patient without the spouse-guardian’s permission and
without providing the family with due process; (iv) Interpersonal conflicts led to employees infringing
on patients’ privacy in the examining room; and, (v) Managers did not consider an employees’ physical
capabilities before making assignments that he could not accommodate.

                                       BENEFIT PROGRAMS

                                           Reviews included: (i) Our summary report on VA claims
   Delivery of Benefits and Services       processing consolidated recommendations to improve the
                                           claims processing system made by the VA OIG, Congressional
                                           commissions, and several task forces established by VA; (ii)
Our evaluation on whether Veterans Benefits Administration (VBA) compensation and pension (C&P)
system messages ensured the accuracy of payments found that 44 percent of the messages generated did
not serve as an effective control (by better managing the messages, VA could prevent annual payment
errors of $33 million); (iii) A follow-up audit to our 1995 report of service-connected disability
determinations found that prior audit recommendations were satisfactorily implemented; (iv) Our audit
of Social Security Administration/VA death match procedures found that VBA needs to develop and
implement a more effective method to identify deceased beneficiaries and timely terminate their C&P
benefits, thus reducing expenditures by $4 million; (v) An audit of collection of premium payment and
reporting procedures for the Servicemembers’ Group Life Insurance program found that reserve
component reporting and validation procedures need improvement to ensure the accuracy of $163
million in life insurance premium payments; and, (vi) Our evaluation of safeguards to detect or prevent
irregular disbursements of Matured Endowment awards totaling $136 million from life insurance
policies, found that increased oversight of high risk disbursements will reduce the potential for fraud.



                                                     ii
                       The following examples of investigations disclosed instances of fraud relating to
  Program Fraud        loan origination, compensation, education assistance, and dependency payments:
                       (i) An individual was sentenced to 60 months’ confinement, restitution of
                       $517,384, and to forfeit holdings of over $2 million. The individual purchased
low-cost distressed properties, cycled them through front companies to inflate their assessed value, and
then sold them to fraudulently qualified applicants. (ii) An individual was sentenced to 46 months’
imprisonment and was ordered to pay restitution of $447,182. The individual posed as a wheelchair-
bound veteran who had lost the use of his right arm and right leg, and collected over $500,000 in VA
benefits while, in fact, he ran a successful painting business. (iii) The U.S. Attorney’s Office is
continuing to obtain civil settlements from student veterans who received VA education benefits but did
not attend scheduled college classes. Bribes were paid to faculty staff, including a department chairman,
to ensure high grades would be given with no class attendance required. To date, 77 students have
agreed to pay $1,261,400 in restitution. Negotiations are continuing with additional students. (iv) An
individual pleaded guilty to theft of public funds. Our investigation found that, over a 15-year period,
the individual cashed his deceased mother’s Dependency and Indemnity Compensation checks. Loss to
VA totaled more than $100,000.

                                  FACILITIES MANAGEMENT

                          We reviewed VA leased space with annual costs of $171 million to evaluate
  Lease Management        the effectiveness of lease administration. We found leases were generally
                          properly administered, but in five cases VA is paying General Services
                          Administration $1.6 million more than the current market value.

                                  An evaluation of VA’s capital asset acquisition practices and capital
   Capital Asset Acquisition      programming process, which involved $1.3 billion in FY 1997, found
                                  VA is making good progress towards a capital program. We
                                  recommended VA develop a network-level investment policy and that
alternative capital funding strategies be explored.

                         We reviewed VHA management controls over $11.5 million in average annual
  Prior Year Funds       prior year funds, used to pay for work on nonrecurring maintenance
                         construction projects.  We concluded that $3.8 million was used
                         inappropriately and VAMCs needed additional guidance.

                                  The OIG reviewed structural framing problems which became
   Structural Design Problems     apparent during construction of the new VA regional office (VARO)
                                  building at Bay Pines, FL. The review determined the major cause of
                                  the structural design problems was due to a private
Architect/Engineering (A&E) firm and its engineering subcontractor providing VA with structural plans
for the project which contained structural framing design errors. A VA OIG consultant determined the
structural framing design, as modified, would safely support VA's standard requirements for a VARO
building. The engineering subcontractor to the A&E firm has reimbursed VA $706,000 to date, the
cost to correct some of the design errors.




                                                   iii
                                  FINANCIAL MANAGEMENT

                       In FY 1996, we began a multi-phase evaluation of VA’s $4.2 billion debt
   Debt Collection     management program focusing on the identification, prevention, and recovery of
                       overpayments of C&P benefits, and the billing and collection of medical care
                       costs owed by veterans and third party insurers. Overall audit results to date
identified monetary benefits totaling over $249 million.

                                          Our review of Medical Care Collection Fund (MCCF)
    Medical Care Collection Fund          collection and billing practices at one VAMC concluded that
                                          collections could be further increased by using collection tools
                                          developed by the MCCF program office and obtaining insurance
data from veterans.

                                      EMPLOYEE INTEGRITY

                                      The following examples of investigations disclosed drug and other
      Employee Misconduct             property theft, workers’ compensation fraud, and other employee
                                      misconduct: (i) Based on our undercover investigation, two registered
                                      pharmacists pleaded guilty to numerous offenses. Both individuals
admitted reselling more than $200,000 worth of stolen VA pharmaceuticals. (ii) A VAMC pharmacy
supervisor was terminated from his employment based on an investigation that revealed he ordered drugs to
be sent by mail in the names of inactive VA patients, but had them sent to his home address. (iii) One former
and two current VA employees pleaded guilty to the theft of Government property based on a 1-year
VA OIG undercover operation. The three employees sold stolen computers, printers, and furniture to
VA OIG undercover agents. (iv) A VAMC chief of environmental services and her accomplice each
pleaded guilty to one felony count of filing false claims. The service chief approved VA payments in excess
of $73,760 for services that were not rendered. (v) An individual who served as an uncompensated VAMC
employee pleaded guilty to numerous counts of theft and false statements. The offenses were committed in
connection with drug research. As part of the plea agreement, the individual will serve 5 years in prison, pay
approximately $175,000 in fines and expenses, and $1.1 million in restitution and forfeitures. (vi) A former
VAMC psychologist was indicted concerning a scheme to defraud the Government in connection with the
receipt of workers’ compensation benefits. We determined that, for more than 13 years, the individual
received workers’ compensation benefits in excess of $300,000 for a back injury alleged to have occurred
while working at the VAMC. During this time, however, he was employed. (vii) A former VAMC nurse
was found guilty of one count of making a telephone bomb threat. As a result of several bomb threats,
patients were evacuated from the building which housed the intensive care unit. (viii) An individual pleaded
guilty to a charge of false statements stemming from the misrepresentation he made concerning the nature of
a prior conviction when he applied for a position as a VAMC medical doctor. As a result of a plea
agreement, he was sentenced to 42 months’ imprisonment and waived his right to appeal.

                                  FOLLOWUP ON OIG REPORTS

                             As of March 31, 1998, the OIG did not have any unresolved internal audit
   Unresolved Reports        reports. A total of 39 external contract reports had been unresolved for
                             over 6 months, with funds costs totaling $104 million. Resolution of
                             external contract reports is pending contracting officers’ decisions, with the
contracting officer the sole decider in these cases.
                                                      iv
                                      SUMMARY OF OIG OPERATIONS

                                                                                       Current 6 Months
                                                                                        10/1/97 - 3/31/98
                                                                                      (Dollars in Millions)
OIG Reviews Completed and Resolution Action
    Reports Issued........................................................................... 111
    Settlement Agreements ................................................................        0
    Value of Reports/Agreements
        Questioned Costs...................................................................      $8.7
        Unsupported Costs.................................................................       $1.1
        Recommended Better Use of Funds ............................................ $314.2
             Total ........................................................................... $324.0

    Reports Resolved (issued this and prior periods)..................................          30
    Value of Resolved Reports/Agreements
       Disallowed Costs................................................................... $10.1
       Funds to Be Put to Better Use ................................................... $97.3
            Total ........................................................................... $107.4

    Unresolved Reports
       Over 6 Months as of 3/31/98:
            Internal Audit.................................................................       0
            External Contract ............................................................       39
       Less than 6 Months as of 3/31/98:
            Internal Audit.................................................................       0
            External Contract ............................................................       42
            Total ...........................................................................    81

    Value of Unresolved Reports:
       Questioned Costs...................................................................      $5.5
       Unsupported Costs.................................................................       $2.6
       Recommended Better Use of Funds ............................................ $317.2
            Total ........................................................................... $325.3

Investigation Activities
    Investigative Cases
       Opened...............................................................................    113
       Closed ...............................................................................   125
       Pending ..............................................................................   332

    Impact of Investigations
       Indictments..........................................................................     35
       Convictions .........................................................................     57
       Probation (in years)................................................................     183
       Prison Sentences (in years).......................................................        61
       Fines, Penalties, Restitutions, and Civil Judgments .........................             $7.6
       Investigative Recoveries and Savings ..........................................           $2.8
       Administrative Sanctions .........................................................       103




                                                               v
                                                                                       Current 6 Months
                                                                                       10/1/97 - 3/31/98
Audit Activities
   Reports Issued
      Internal Audits......................................................................      11
      Other Reviews .....................................................................         7
            Total ...........................................................................    18

   Audit Workload
      Carry-Over Projects Completed.................................................             17
      Planned Projects Initiated ........................................................         5
      New Projects Received ...........................................................           9
          Total ...........................................................................      31

Contract Review Activities
   Reports Issued/Settlement Agreements
      Contract Reviews by OIG Staff
           FSS Contracts ................................................................        35
           PL 102-585 Reviews ........................................................            2
           Other...........................................................................       4
      Contract Reviews by Other Agencies ..........................................              24
           Total ...........................................................................     65

Hotline and Special Inquiry Activities
   Hotline Cases
      Opened...............................................................................     401
      Closed ...............................................................................    284
      Percent of Founded Allegations .................................................           21%

   Impact of Hotline Activities
      Administrative Sanctions .........................................................         32

   Special Inquiries Completed
      Reports Issued ......................................................................      12
      Administrative Closures ..........................................................         13
            Total ...........................................................................    25

   Special Inquiries Workload
      Carry-Over Projects ...............................................................        25
      New Projects Received ...........................................................           6
            Total ...........................................................................    31

Healthcare Inspection Activities

   Projects Completed
      Inspection Reports Issued.........................................................         16
      QA/Patient Care Reviews ........................................................           10
      Clinical Consultations/Technical Support. ...................................              82
            Total ...........................................................................   108

   Projects Pending
      QA/Patient Care Reviews ........................................................           49
      MI Case Evaluations ..............................................................          3
      Clinical Consultations/Technical Support .....................................             18
            Total ...........................................................................    70

                                                                   vi
               I. SIGNIFICANT OPERATIONAL ACTIVITIES

                             PROCUREMENT PROGRAMS

1. CONTRACTOR OVERCHARGES


Issue: Completed 31 preaward reviews of Federal Supply Schedule (FSS) proposals with an
estimated contract sales value of $3.3 billion

Conclusion: Recommendations to reduce contract costs by $216 million.

Impact: Reviews will assist VA contracting officers in negotiating the best possible prices for
FSS users.

We completed 31 preaward reviews of FSS proposals from pharmaceutical, dental and X-ray supplies,
and equipment' manufacturers. We made recommendations to VA contracting officers amounting to
$216 million in better use of funds compared to the contracts' estimated sales value of $3.3 billion.
Better use of funds represent the difference between FSS offered prices compared to prices offered to
most favored customers with terms, conditions, and volume similar to the FSS. To assess the
reasonableness and validity of our recommended better use of funds, we review the contracting officer's
price negotiation memorandum to identify how much cost avoidance the contracting officer achieved by
negotiating the best possible contract prices. The success of the preaward review efforts is the result of
VA working as a team with auditors and contracting officers training together and sharing goals and
objectives, and with auditors, Office of Acquisition and Materiel Management (OA&MM) acquisition
resources team, and Office of General Counsel attorneys working together to assist contracting officers
in negotiating the best possible prices for FSS users.

Issue: Contractor Overcharges for Pharmaceuticals and Medical Supplies

Conclusion: Reviews of voluntary disclosures and other contract reviews disclosed overcharges.

Impact: VA will recover over $5.6 million from FSS contractors.

As a result of VA team efforts during the period, VA will recover over $5.6 million in contract
overcharges on several FSS contracts.

•   A pharmaceutical company acknowledged errors in calculating Federal Ceiling Prices (FCPs) under
    Public Law 102-585. The company made a voluntary disclosure to VA and offered a refund of
    $2,030,825. We reviewed the refund offer and determined that the overcharges amounted to
    $2,533,924, which the company agreed to remit to VA in settlement of the contract overcharges.
    As a result of the voluntary disclosure and our follow-up review, the company has developed and
    implemented policies and procedures that would incorporate the necessary internal controls to
    correct the errors they had discovered. The company had detected the errors in their FCPs as a

                                                                                                   1-1
      result of a “Dear Manufacturer” letter sent by VA’s Office of General Counsel to all manufacturers
      of covered drugs. The “Dear Manufacturer” letter was based on several common errors we noted in
      the FCP calculations at companies being reviewed by us. The significance of the trend we observed
      led to our collaboration with the Office of General Counsel and the issuance of the “Dear
      Manufacturer” letter. This letter has resulted in several other voluntary disclosures and remittances.

•     As a result of our postaward review, a pharmaceutical company agreed to pay $1,700,000 to VA
      for FSS contract overcharges resulting from not disclosing accurate, complete, and current pricing
      information at the time of negotiations and from violations of the provisions contained in the price
      reductions clause.

•     An FSS contractor that provides VA with medical supplies voluntarily disclosed they owed the
      Government $944,500 because of price reduction violations in administering their FSS contract.
      Our review concluded the company actually owed the Government a total of $993,270 which they
      subsequently remitted to VA.

•     A pharmaceutical company remitted $223,478 to VA for contract overcharges resulting from not
      disclosing accurate, complete, and current pricing and discount information to the contracting
      officer during negotiations. Our review found that while the company generally maintained a no-
      discount policy, the lower prices resulted from granting price protection for an extended period of
      time to certain commercial customers.

•     Three pharmaceutical companies concurred with our conclusion that they had been underreporting
      sales subject to the Industrial Funding Fee (IFF). Their internal reviews revealed they owed VA an
      additional $133,220 in IFF because they had understated sales. The companies have remitted the
      adjustment to VA. We identified the underreported sales by matching sales totals obtained from
      VA’s Pharmaceutical Prime Vendors and VA internal records of direct sales against sales totals that
      contractors reported to VA. We are continuing our review of other major pharmaceutical
      manufacturers whose reported sales differ significantly from sales reported to VA.

•     A pharmaceutical company acknowledged errors totaling $6,195 in calculating FCPs under Public
      Law 102-585. Our review also disclosed other billing errors totaling $34,649. The contractor
      agreed to pay the $40,844 due and to implement policies and procedures incorporating necessary
      internal controls to correct the errors.




1-2
2. MANAGEMENT OF CONTRACTS


Issue: Procurement of Computer Hardware and Software (PCHS) and the Procurement of
Automated Information Resources Solutions (PAIRS)

Conclusion: VA addressed the most significant lessons learned from past contracts, however the
acquisition strategy should be reevaluated to assure VA meets the intent of the Clinger-Cohen
Act.

Impact: Better use of $58 million.

We conducted a review of VA acquisition initiatives for the PCHS and the PAIRS contracts. The
PCHS contract is valued at $1.5 billion over 5 years and PAIRS is valued at $875 million. We found
that acquisition risks associated with the PCHS initiative were effectively addressed by VA’s
procurement planning actions. During the award of the PCHS contract, officials addressed most lessons
learned from past VA information technology (IT) contracts and took actions that compared favorably
with the best practices in the industry. We identified opportunities for VA to enhance its IT contracting
initiatives and to help address and meet IT performance expectations included in the Clinger-Cohen Act.

Key issue areas requiring VA's attention include: (i) reassessing the need and benefits of using national
IT contracts, given the availability of other procurement mechanisms, (ii) requiring VHA’s decentralized
Clinical Workstation Replacement initiative be subject to the new capital IT investment review process,
(iii) addressing performance expectations included in Section 5132 of the Clinger-Cohen Act which
would reduce IT costs by $22 million yearly and $101 million over 5 years, (iv) ensuring replacement
computer terminals do not upgrade original project requirements to unnecessary higher performance
systems costing an additional $36 million, (v) establishing a realistic estimate of cost, schedule, and
performance goals for the PAIRS initiative that excludes the VHA Infrastructure Upgrade project
requirements that have already been completed, and (vi) assuring that the Contracting Officer Technical
Representative (COTR) be provided with formal training in COTR duties and COTR designations are in
writing. The Acting Assistant Secretary for Management and the Under Secretary for Health concurred
with the report recommendations and provided appropriate implementation actions. The PAIRS
contract was terminated on January 29, 1998. (Audit of VA PCHS/PAIRS and Selected Information
Technology Investments)

Issue: Pharmaceutical Prime Vendor (PPV) Program

Conclusion: Internal controls were generally adequate, however price-monitoring efforts could
be more efficient and responsibilities needed clarification.

Impact: Improved contract management.

We conducted an audit of the PPV Program as part of our continuing coverage of OA&MM and
National Acquisition Center (NAC) procurement activities. The purpose of the audit was to determine
if internal controls were adequate to ensure that VAMC buying activities paid correct prices, as
contracted by NAC staff, for drug items purchased through prime vendors.


                                                                                                  1-3
Audit test results showed that internal controls governing the solicitation and award of prime vendor
contracts were effective and controls to ensure correct PPV pricing were generally effective. Tests of
the largest prime vendor (accounting for 74 percent of PPV sales in FY 1995) identified few exceptions.
However, price-monitoring efforts could be more efficient and price monitoring responsibilities needed
clarification in VA policy.

We recommended that NAC and OA&MM officials develop an electronic PPV price monitoring system
and that policy be established defining the respective responsibilities of NAC, VHA’s Pharmacy Benefits
Management Strategic Healthcare Group, and VAMC purchasing staff for monitoring prime vendor
contract performance. The Under Secretary for Health and the Deputy Assistant Secretary for
Acquisition and Materiel Management concurred in the report’s recommendations and provided
acceptable implementation plans. (Audit of VA’s Pharmaceutical Prime Vendor Program)

3. PROCUREMENT FRAUD AND PRODUCT SUBSTITUTION


Issue: Integrity of the Procurement Program

Conclusion: Investigations disclosed third party fraud in VA’s procurement program.

Impact: Companies and individuals are held accountable for illegal acts.

Contract Fraud

•     A Federal search warrant was executed by VA OIG special agents at the offices of a plumbing
      subcontractor who was awarded a Government contract to renovate part of a VA Extended Care Center.
      The total value of this contract is $7.8 million. A joint investigation with the Department of Labor (DOL)
      OIG, revealed the subcontractor was billing VA for union wages, but paying its workers at well below
      the union wage. Potential loss to the Government may exceed $50,000.

•     An investigation into fraudulent activities in a VA vocational rehabilitation program was launched in
      response to evidence that vendors fraudulently billed VA for goods and services that were not
      provided. In response to information that time and attendance files were being altered in
      anticipation of a subpoena being served, a search was conducted jointly by VA OIG, Federal Bureau
      of Investigation (FBI), and state police, during which altered documents were seized. State police
      joined the investigation on behalf of a state Bureau of Vocational Rehabilitation after the initial
      phase of the inquiry disclosed that the Bureau was being subjected to some of the same fraudulent
      practices.

Procurement Fraud

•     A hearing was held in U.S. District Court addressing two motions: one brought by the Government
      to enforce a VA OIG subpoena issued to a company doing business with VA and one brought by
      the company to suppress evidence from a search warrant executed at the company’s offices. With
      regard to the Government’s motion, the company was ordered to comply with the demands of the
      subpoena within 60 days. With regard to the company’s motion, the court denied it. The company
      is the subject of a joint VA OIG, Food and Drug Administration, and U.S. Customs Service


1-4
    investigation into allegations that it sold non-conforming and unauthorized surgical instruments to
    VA and to other agencies.

Product Substitution

•   A computer hardware distributor pleaded guilty in U.S. District Court to one count of mail fraud. A
    joint investigation by VA OIG and the Postal Inspection Service revealed the individual altered
    approximately 300 central processing unit (CPU) chips so they appeared to be a higher speed chip
    and sold them to VA at inflated prices. The distributor altered 50 MHz chips by “pushing” the
    speed on the altered chips and marking them as 66 MHz chips when installed. The scheme resulted
    in higher profits for the distributor, but would result in ultimate failure of the computers. Loss to
    VA exceeds $34,000.

•   The owner of a medical equipment supply company pleaded guilty and was sentenced in U.S. District
    Court to 6 months’ home detention, 5 years’ probation, and 100 hours of community service, fined
    $1,000 and ordered to make restitution of $11,701 to VA. The individual had contracted with a VAMC
    to provide new medical equipment to homebound veterans, but a VA OIG investigation revealed the
    individual instead delivered used equipment and billed VA for new.




                                                                                                  1-5
                            MEDICAL CARE PROGRAMS

1. RESOURCE UTILIZATION


Issue: Medical Care Usage Patterns and Availability of Resources

Conclusion: VHA is addressing historical funding inequities that existed among VHA facilities.

Impact: Improved allocation of resources.

In FY 1997, VA spent about $17 billion to deliver health care to America’s veterans. The scope of the
audit included reviewing historical VHA workload and expenditures from FY 1992 through FY 1995
and projected workload for FY 1998, 2000, and 2005. The audit confirmed that inequities in resource
distribution existed among the 22 Veterans Integrated Service Networks (VISNs) that provide medical
care to eligible veterans. Some VISNs received resources in greater proportion to their workload than
others. These inequities resulted because VHA resource distribution systems did not adequately
respond to changing veteran demographics.

During the course of the audit, VHA established VISNs, and implemented the Veterans Equitable
Resource Allocation System (VERA) in response to Public Law 104-204. Legislation was also passed
that delineated new veteran eligibility requirements. VHA is appropriately responding to resource
allocation inequities by decentralizing resource distribution authority to Network Directors, initiating
use of a new resource allocation system, and developing automated management information systems
which should help control costs. Our analysis of VHA’s data supports the actions taken by VHA.
(Audit Of VHA Medical Care Usage Patterns and Availability of Resources)

2. ELIGIBILITY AND ENTITLEMENTS ISSUES


Issue: Management of the Civilian Health and Medical Program of the Department of Veterans
Affairs (CHAMPVA)

Conclusion: While CHAMPVA was generally well-managed, reviewing certain claims paid in
prior years and aggressively pursuing third party liability claims could increase cost recoveries.

Impact: Recovery of $4.2 million in inappropriate payments and $293,000 from potentially liable
third parties.

This audit was requested by the House Veterans Affairs Committee to evaluate the management
effectiveness of the program. CHAMPVA provides healthcare benefits for the dependents of: (i)
veterans rated as permanently and totally disabled, (ii) veterans who died as a result of service-
connected conditions, or (iii) veterans who died on duty with less than 30 days of active service. The
Health Administration Center (HAC) in Denver is responsible for processing claims for reimbursement
and otherwise administering the program. As of September 30, 1997, there were 81,000 beneficiaries
enrolled in CHAMPVA. During FY 1997, the HAC processed 913,000 claims pertaining to medical
services for 49,000 of the enrolled beneficiaries. FY 1997 program costs totaled $98 million of which


1-6
$91 million were direct costs for medical care claims and $7 million were indirect costs for program
administration.

Our audit found that CHAMPVA was generally well-managed and program controls were effective.
The HAC had corrected prior internal control problems. The HAC had also established procedures to
ensure claim payments were accurate, rates paid were reasonable, and high cost medical claims were
monitored to ensure that care was necessary and appropriate.

The audit identified two opportunities to further improve program operations by increasing the recovery
of medical care costs. First, the HAC could use commercial medical procedure and diagnostic code
auditing software to review prior year outpatient claims for inappropriate payments. Based on the
HAC’s success in using this software for reviewing current claims, we estimated a review of certain
prior year claims could identify about $4.2 million in inappropriate payments that may be recoverable.
Second, the HAC identified, but did not always aggressively pursue, potentially liable third parties. We
reviewed 37 cases that the HAC had not fully developed and found 3 cases where a third party could
possibly be held liable for the cost of care. CHAMPVA paid $293,000 in claims for care of these
3 beneficiaries. The HAC Director concurred with our recommendations and provided responsive
planned actions. (Audit of CHAMPVA)

3. VALIDITY OF DATA IN VA SYSTEMS


Issue: Pathology and Laboratory Medicine Service’s Workload Reporting System

Conclusion: National laboratory workload data was accurate, but not complete.

Impact: Better workload reporting would improve the utility of workload information.

This audit is the third in a series of Pathology and Laboratory Medicine Service audits intended to
provide an overall assessment of program performance. This audit was conducted to determine whether
the data in the workload reporting system, the Laboratory Management Index Program (LMIP), was
accurate and complete. LMIP was implemented on October 1, 1995 to accumulate national laboratory
workload data from all VAMCs. During a recent 12-month period, LMIP reports showed that 105
million tests were performed nationwide.

Workload data reported to LMIP was generally accurate, but was not complete because some VAMCs
reported sporadically, or did not report at all. We estimate that Pathology and Laboratory Medicine
Service may be underreporting workload by almost 7 million tests annually representing program costs
of over $5 million per year. We also found that one of the system controls used to test the accuracy of
data, the National List of Tests, was allowing inappropriate items to be reported as tests. We
recommended steps the Under Secretary for Health could take to further improve data management and
ensure LMIP is complete and accurate. The Under Secretary for Health provided an acceptable action
plan in response to our findings and recommendations. (Audit of Pathology and Laboratory Medicine
Service’s LMIP)




                                                                                                 1-7
4. QUALITY OF HEALTH CARE PROGRAM EVALUATIONS


Issue: Status of VHA’s Quality Management Activities

Conclusion: VHA managers need to strengthen and consolidate program leadership.

Impact: Assurance of high quality health care to veterans.

Quality Management Programs are essential to VHA’s ability to ensure high quality, safe patient care.
Since late 1995, VHA top managers have dramatically revised and in many ways strengthened the
quality management process. At the request of the Senate Committee on Veterans Affairs, we
conducted a program evaluation of VHA’s quality management activities at VACO, VISN, and VAMC
levels in order to determine the extent of changes that have occurred since the advent of new quality
management leadership in late 1995. We concluded that quality management programs have not been
materially reduced in scope or activity during this 2-year period. VHA managers abolished the QUality
Improvement Checklist (QUIC), but the clinical indicators that QUIC measured are still available in a
nationally distributed, automated database. Thus, there was no net loss of Quality Management
information during this transition. Similarly, we found that the manpower commitment to quality
management has not materially changed insofar as numbers of employees who evaluate health care are
concerned, but the configuration or distribution of these employees has changed. Particularly, VISNs
did not have consistent oversight of their subordinate VAMCs’ quality management activities. The
Under Secretary for Health strengthened Quality Management Programs by developing the 12
Dimensions of VHA’s Healthcare Quality Framework, and by articulating Core Values of trust, respect,
commitment, compassion, and excellence as VHA policy.

The overall leadership of the Quality Management activities needed to be strengthened, and quality
management activities needed to be consolidated at the Headquarters level in order to further strengthen
the program. We made nine recommendations to strengthen, coordinate, and consolidate quality
management programs. The Under Secretary for Health concurred with the recommendations and
implemented or planned appropriate actions that will lead to a stronger quality management process.
(Quality Management in the Department of Veterans Affairs VHA)

Issue: Use of Advanced Practice Nurses (APN) to Extend Patient Care Capability

Conclusion: VHA managers need to consider strengthening quality management initiatives to
oversee their practice.

Impact: Treating more patients at less cost.

The VHA operates the most extensive health care delivery system in the country, and is the largest
single employer of APNs in the nation, with about 1,850 APNs on its rolls. In his “Vision for Change,”
the Under Secretary for Health launched some dramatic changes in traditional health care delivery,
including an objective of increasing by 200 percent, the use of non-physician providers to supplant and
supplement physicians’ services in primary care settings.



1-8
We conducted an oversight inspection of VHA’s efforts to identify the APN population and the
functions that they perform, particularly in reducing physicians’ direct care responsibilities in VAMCs
throughout the nation. We found there are several opportunities for VHA to strengthen its use of
APNs, but that at least three remedial barriers prevented this from occurring: lack of, or limited
prescriptive authority; lack of nurses’ and physicians’ understanding of the APN roll; and lack of
administrative support. VHA’s survey showed that, disregarding the barriers, agency APNs are highly
satisfied with their jobs, but only about 23 percent of them planned to remain in the VHA for their entire
careers. VHA promulgated policies in 1995 and 1997, that facilitate APNs’ ability to function more
independently in patient care settings. We cautioned VHA managers about the need to recognize an
increasing opposition to expanding the use and clinical prerogatives of APNs, and of the inherent risks
in awarding expanded privileges to non-physician practitioners. We advised VHA to encourage local
facilities to carefully manage the APN credentialing and privileging process, and to ensure strong quality
assurance oversight of the treatment provided. We did not make any formal recommendations since we
did not identify any apparent deficiencies. (Oversight Review of the VHA’s Use of APNs in Primary
Care)

Issue: Systematic solicitation of patient assessments of health care services

Conclusion: Feedback is too slow to make meaningful changes in a fast-moving environment.

Impact: Meaningful information enhances responsiveness to patient needs.

VHA managers have been obtaining feedback from patients as to their perceptions of the quality of
services that they have received in VAMCs for nearly 20 years, but questionnaires have not been
designed to elicit information that pertained to the actual treatment process itself. In 1994, VHA
managers began to revise the patient feedback questionnaire instrument in order to obtain pertinent,
meaningful information that is associated with, and would help in measuring medical centers’ standing in
complying with the Secretary’s Customer Service Standards.

We conducted a program evaluation of VHA’s National Customer Feedback Center (NCFC) in order to
evaluate the revised patient survey process, and how resulting information analyses are used to affect
patient care. We found the newly revised survey process is founded on time-tested methodologies and
the surveys elicit valid information that can be used to measure a facility’s standing in complying with
the Secretary’s 10 Customer Service Standards. The NCFC uses two survey instruments to obtain
patients’ impressions of their acute inpatient and outpatient experiences. Current analytic methods are
slow and inhibit center employees’ ability to transmit analyzed results to VAMCs in a sufficiently timely
fashion for it to be useful in making meaningful operational changes quickly enough in a rapidly
changing health care environment. VAMC managers are conducting their own patient satisfaction
surveys to compensate for the late arriving NCFC results, but the information gathered from these two
types of surveys is not correlated, and we could not find any indication that anyone determines if the
independently done survey questions are properly designed to capture valid information. We made two
consultative recommendations intended to strengthen NCFC operations. The Under Secretary for
Health provided responsive comments. (Review of VHA’s NCFC)




                                                                                                   1-9
Issue: Nationwide Quality Program Assistance (QPA) Reviews

Conclusion: Pace of change was reflected increasingly in employee morale.

Impact: Advisory reports to VAMC and VISN managers.

We conducted QPA reviews at five VAMCs. The QPA process is intended to add value to other
external review activities that oversee VHA facilities. Review instruments assess the extent to which a
VAMC meets VHA’s four performance goals of cost-efficient care, high quality care, improved patient
access to care, and improved patient satisfaction.

We found that VAMCs’ top managers were individually and collectively involved in several actions that
were focused on ensuring that eligible veterans have access to high quality, low cost health care. Mid-
level managers and operating employees expressed concern over the fast pace with which changes in the
health care process and facility reorganizations have been made, but they were aware of, and generally
supported management’s treatment goals. Patients at all of the VAMCs that we visited, indicated they
were generally pleased with the care they received. OHI did not identify any incidents that relate to
poor employee morale at any of the facilities that we visited. Nevertheless, the consistently identified
concerns about the potential for adverse morale among employees, associated with the rapid changes in
VA health care, comprise an issue that VHA managers need to consider and address in order to ensure
continuing high quality patient care, and patient satisfaction. (QPA Reviews, VAMCs Iowa City, IA;
Dublin, GA; Loma Linda, CA; Tucson, AZ; and Lexington, KY)

5. INSPECTIONS OF INDIVIDUAL CASES OF PATIENT CARE


Issue: Alleged Improper Community Nursing Home Placement of an Elderly Patient

Conclusion: Clinicians did not respond to requests for alternative placement; did not provide
due process opportunity; and could not agree on the severity of the patient’s impairment.

Impact: Clarified policies should prevent recurrence of similar incidents.

We inspected allegations that VAMC clinicians did not properly include a patient’s spouse in plans to
outplace the patient to a remotely located nursing home. Clinicians placed the patient in a nursing home
that was located more than 300 miles from the family home, and the patient died a few days after his
arrival. We found VAMC clinicians did not properly manage arrangements to discharge the patient and
transfer him to a private nursing home. The patient’s spouse was his legal guardian and did not consent
to the transfer; clinicians did not provide the patient’s spouse, or any other family member with
information about the right to due process to contest the placement; and two senior clinicians could not
agree on the patient’s mental status that would be influential in the placement decision. We made three
recommendations to reduce the possibility that similar incidents will occur in the future. The Medical
Center Director concurred with the recommendations and provided acceptable implementation plans.
(Inspection of Alleged Mismanagement of a Nursing Home Patient’s Discharge, VAMC Biloxi, MI)




1-10
Issue: Infringement of Patients’ Right to Privacy

Conclusion: Interpersonal hostility among employees resulted in behaviors that led to invasions
of patients’ privacy, and that had the potential to adversely affect patient care.

Impact: Reducing interpersonal tensions improves patient/provider relationships.

We inspected allegations that a female physician had improperly touched several male patients at a
satellite outpatient clinic. We concluded the physician had not improperly touched, fondled, or
otherwise assaulted any patients. Instead, several male patients complained that as they were seated,
essentially disrobed, in examining rooms, various clinic employees would enter the room, unannounced,
and without any apparent purpose. The experience was embarrassing and demeaning to some of the
patients, and they blamed the physician since they considered that she was responsible for their well-
being while they were under her care.

We found that selected Outpatient Clinic employees were engaged in hostile interpersonal relationships,
or openly disagreed with selected clinic operations, and apparently acted out their disputes by
embarrassing patients in the described manner. We interviewed a random sample of 42 patients who
had been treated by the clinic physician during the previous year. All of the patients whom we
interviewed praised the physician’s professional demeanor and caring attitude, and all of them rated the
care that she provided to them as very good or excellent. Several of these patients attested to their
knowledge of the interpersonal tensions among clinic employees, and cited examples of incidents that
they had witnessed or heard of that confirmed our findings. The Director of the parent medical center
had become aware of these unwarranted behaviors and had initiated a team-building effort in order to
reduce the tensions and direct employees’ energies into providing high quality patient care.

Since the Director had already initiated corrective actions to improve clinic conditions, we did not make
any recommendations. Nevertheless, we cautioned the Director to maintain surveillance over clinic
employees’ actions to avoid recurrence of such behavior, and he agreed to do so. (Inspection of Alleged
Patient Sexual Molestation by a Physician at a VA Medical Clinic)

Issue: Improper Nursing Practices on an Acute Medical Ward

Conclusion: A patient received appropriate care, but nursing practices need to be strengthened
to ensure consistent patient care, and the availability of important medical information.

Impact: Improved documentation of clinical information.

We inspected allegations that a patient died several days after surgeons amputated his leg because
nurses did not provide basic nursing care. We inspected the issues in the case and determined that the
nurses provided the patient with adequate nursing care, and that other aspects of his treatment were
within accepted standards of practice. Family members had expressed concerns about the patient’s care
early on in the treatment process, and the head nurse, as well as ward nursing employees took great care
to maintain a high level of communication with them. During our inspection, several senior-level
clinicians approached an inspector and expressed concerns that nurses were not properly recording
important medical information, such as fluid intake and output values, and patients’ vital signs, in the
medical records. Medical records reviews confirmed these charting deficiencies. We recommended
                                                                                                 1-11
actions to correct the deficiency, and the VAMC Director provided responsive implementation plans.
(Inspection of Alleged Patient Neglect and Inadequate Care, VAMC Syracuse, NY)

Issue: Alleged Misdiagnosis of a Patient’s Chronic Heart and Lung Disease

Conclusion: The patient had clear evidence of congestive heart failure, but did not have a
history or symptoms of chronic obstructive lung disease.

Impact: Improved medical record documentation and quality improvement procedures.

We reviewed allegations that a patient may have been subjected to improper treatment because
physicians had diagnosed him as having congestive heart failure, and chronic obstructive lung disease,
and the patient’s spouse insisted that he had never suffered from these maladies. We concluded that the
patient received adequate and timely treatment for his illness throughout his hospitalization. The patient
had clear signs of congestive heart failure, and his physician provided appropriate treatment for this
condition. The medical record contained conflicting information as to whether the patient had chronic
lung disease, even though he had smoked more than one pack of cigarettes a day for more than 40
years. The lung condition was not mentioned in at least seven previous chest x-rays, but he had
pneumonia at the time of admission. Our review found the patient’s physician had prescribed thyroid
medication before he had obtained objective evidence of the need for this medication. The medication
was probably unnecessary, but did not harm the patient. Nursing employees also committed a
medication error in that a nurse gave the patient a medication based on a reported telephone order, but
the physician never wrote such an order. The patient’s record shows he had signs and symptoms that
would suggest the need for the medication, and we speculated that the nurse probably obtained the
order by telephone, but the physician neglected to write the order after the fact. Physicians had
previously prescribed the medication for similar symptoms. We made recommendations to address the
discrepancies, and the VAMC Director took appropriate corrective actions. (Inspection of Alleged
Inappropriate Patient Care and Misdiagnosis of a Patient’s Illness, VAMC Northampton, MA)

Issue: Alleged Improper Leg Ulcer Treatment

Conclusion: Nurses wrapped wounds in impervious material to enable them to move freely in
the medical center.

Impact: Maintenance of a restraint-free patient environment.

We reviewed allegations that VAMC nursing employees routinely wrapped patients’ lower leg and foot
wounds in red plastic biohazard bags, and that this procedure led to increased rates of wound gangrene
and limb amputations. We visited the VAMC without providing prior notice, and twice visually
inspected several wards, including all three Nursing Home Care Units (NHCUs), without prior notice.
We concluded nursing employees had, at one time, wrapped patients’ lower leg and foot wounds in red
plastic biohazard bags, but nursing managers had directed this practice cease between 18 and 24 months
before we initiated our inspection. Nursing employees used these wraps if the patients had open,
weeping wounds or stasis ulcers that had the potential to become infected. Similarly, nurses would
apply such wraps if patients had colonized communicable infections in these areas which could be
transmitted to other patients, employees, or visitors, if left unprotected. The use of the red plastic bags
was a matter of convenience in that these bags are available on any isolation cart, several of which were
strategically stationed outside of isolated patients’ rooms on the NHCU. The purpose of using
1-12
impervious wrappings for these patients’ wounds was to facilitate their ability to leave their rooms and
be as free to ambulate to other areas of the medical center as possible. Nursing employees continue to
use clear plastic bags to wrap patients lower limbs when they shower, but they wrap the wounds in
alternate impervious material when the patients have to leave the ward for any purpose. Nursing
employees readily articulated the rationale and methodology for wrapping the patient’s lower legs and
feet, and asserted they always removed the impervious dressing immediately upon the patients’ return to
the ward.

We did not make any recommendations because nursing managers had already discontinued the use of
the bags for wound wrapping. Nursing managers were revising local infection control policies to clarify
the meaning of impervious wrap, and to clarify the methodology to be used in protecting patients from
infection and protecting other individuals from incurring a patient’s unprotected communicable
infection. (Inspection of Alleged Improper Leg Ulcer Treatment, Jerry L. Pettis Memorial Veterans
Hospital Loma Linda, CA)

Issue: Alleged Inappropriate Proposal to Discharge a NHCU Patient

Conclusion: Employees acted properly in attempting to gain the patient’s cooperation, and did
not threaten him with expulsion. A physician prescribed a drug without recording his rationale.

Impact: Improved treatment of Nursing Home patients who have behavioral problems.

We reviewed allegations that NHCU employees had told a patient that he was being discharged because
he was too ill to be cared for in the NHCU. We concluded that NHCU employees had told the patient
that he was being considered for alternative outplacement because he no longer met the criteria to
occupy a NHCU bed. The patient and his son vehemently resisted this outplacement attempt, and
VAMC employees did not follow-up on the issue.

The head nurse and a social worker both approached the patient and asked him to comply with NHCU
rules that require him to bathe and change underclothing periodically, and to not confront other patients
or employees in a hostile manner. However, they denied that they threatened to expel him from the unit
if he did not behave as expected. The VAMC adopted a policy that patients would only be
accommodated in the nursing home for relatively short periods of time, with a view that they would be
relocated to appropriate facilities to continue rehabilitation or recuperation. Clinicians thoroughly
explained this policy to the patient and his son, but they continued to resist alternative placement, and
the patient continued to resist complying with established policies. The patient’s physician, a certified
geriatrician, concluded the patient may be depressed, and his resistance to complying with the rules may
be secondary to this condition. He prescribed a mood-altering drug to alleviate the depression, but did
not record his rationale for initiating this therapy in the medical record.

We made a recommendation to correct the lack of medical record documentation insofar as the patient’s
mood-altering medication is concerned. The VAMC Director concurred with the recommendation and
initiated corrective action. (Inspection of Alleged Inappropriate Proposed Extended Care Discharge,
VAMC Cheyenne, WY)




                                                                                                 1-13
Issue: Alleged Improper Assignment of a Physically Impaired Physician

Conclusion: Managers were aware a physical impairment could interfere with adequately
performing Medical Officer of the Day duties, but continued to assign the responsibility.

Impact: Assurance of safe patient care.

We reviewed allegations, from three physicians, that VAMC managers had treated them improperly or
unfairly, in separate incidents. We did not substantiate two of the physicians’ allegations. We
concluded that managers had treated two of the physicians fairly in administering disciplinary action to
one of them, and in reassigning the other to accommodate shifting patient loads and to meet the medical
center’s reorganization imperatives. The third physician had a severe physical impairment that
interfered with his ability to provide aggressive patient care such as may be needed in the event of
cardiopulmonary resuscitation. The physician and his personal physician had notified VAMC managers
that he was physically unable to perform all aspects of Medical Office of the Day duties, but managers
had continued to assign him to these duties. We did not find any instance that the physician’s physical
impairment resulted in patient harm. We recommended actions to prevent such events from occurring
in the future, and the VAMC Director provided responsive implementation plans. (Inspection of
Selected Clinical and Administrative Issues, VAMC Lake City, FL)

Issue: Verification of Implementation of Previous Recommendations

Conclusion: All but two previously agreed upon recommendations had been implemented.

Impact: Strengthened Anesthesiology Service leadership.

We reviewed previously agreed upon recommendations from an inspection into alleged clinical and
administrative irregularities on a VAMC’s Anesthesiology Service. We concluded VAMC managers
had addressed and initiated appropriate actions to correct most of the deficiencies that we had identified
in an earlier inspection. However, we concluded that, even though managers had made some progress,
they had not fully implemented two of the previous recommendations.

Two of the major deficiencies, cited in the earlier report, pertained to the need for stronger
Anesthesiology Service management, and a need to provide stronger supervision of anesthesiology
residents. We found VAMC managers had initiated a program to provide leadership mentoring and
development for the service chief, but documentation of this oversight suggested a lack of management
resolve to improve the chief’s skills. Managers had not apparently provided the service chief with a
performance evaluation, and after our inspection visit, gave him a post-dated evaluation. The previous
inspection also identified a need for stronger supervision of anesthesiology residents. We found even
though managers had initiated steps to strengthen supervision, the VAMC’s records show that senior
anesthesiologists who are required to supervise residents continued to inadequately record the quality or
quantity of their supervision in the medical records. We recommended the VAMC Director emphasize
completion of actions taken to implement these two remaining recommendations. (Follow-up Inspection
of Selected Clinical and Administrative Issues on Anesthesiology Service, Hunter Holmes McGuire
VAMC Richmond, VA)



1-14
6. PATIENT CARE ISSUES


Issue: Investigation of Patient Death

Conclusion: The patient was murdered.

Impact: Unusual incident with no VA-wide implications.

A Federal grand jury returned a one count indictment in U. S. District Court against a VAMC physician
charging him with first degree murder. The indictment alleges that in 1994, the physician, while
working at the VAMC, unlawfully killed a patient by injecting the patient with potassium chloride in
violation of Title 18, United States Code (U.S.C.), Sections 7 (3) and 1111.

Issue: Charge Nurse Inattentive to Duties

Conclusion: Patient care top priority at VA facilities.

Impact: Health care professionals held accountable for sacred trust.

An individual employed as a VAMC registered nurse was arrested and charged with making a false
statement, a violation of Title 18, U.S.C. 1001. In an earlier interview by special agents of the VA OIG
and in a signed sworn statement, she stated that she never slept during her duty hours. Investigation,
however, uncovered a pattern of the individual sleeping during her regular tour of duty, midnight to
8:00 AM, and that she was not attentive to patient needs.

7. CONTROL OF DRUGS


Issue: Employee Theft/Diversion of Drugs

Conclusion: Investigations disclosed fraudulent acts by an employee to obtain drugs.

Impact: Former employee is held accountable for illegal acts.

A former VAMC registered nurse was sentenced to 6 months’ home confinement and 3 years’
probation. She previously had pleaded guilty to acquiring morphine by fraudulent means. An
investigation revealed that, on approximately 60 occasions, the individual diverted for her own use pain
medications prescribed for VA patients under her care. She further admitted administering non-
prescribed substances, such as Benadryl, to patients in an effort to conceal her activity.




                                                                                                1-15
8. HEALTH CARE FRAUD


Issue: Investigation of Suspected Fraudulent Claims

Conclusion: Individuals submitted false billings, invoices, and statements.

Impact: Individuals are held accountable for illegal acts.

•   A former VAMC licensed practical nurse, who became a home health care provider for veterans,
    inappropriately billed for certain aspects of home health care which she reportedly was providing to
    a quadriplegic veteran. She did not provide the services for which she billed and illegally sub-
    contracted other services to non-licensed individuals who, in turn, cared for the veteran. A grand
    jury returned a 23-count indictment, charging her with grand larceny, engaging in a scheme to
    defraud, and offering a false instrument for filing claims. She allegedly filed more than 800 false
    documents with various entities, including VA. If found guilty, she could be sentenced to up to 15
    years in prison. The fraud against the entities involved is estimated to exceed $350,000.

•   Pursuant to the False Claims Act, a civil judgment of $11,500 was entered in U.S. District Court
    against a registered nurse under contract with VA. A VA OIG investigation revealed the nurse,
    who contracted to provide home nursing services to eligible disabled veterans, submitted fraudulent
    invoices for nursing care she did not provide. She billed VA for the services at times when, in fact,
    veterans were hospitalized and improperly billed for services she was not authorized to provide.

•   An individual was indicted by a grand jury on six counts of submitting false statements to the
    Government. The indictment was the result of a joint VA OIG and FBI investigation which
    determined the individual was submitting false statements to obtain VA medical treatment to which
    he was not entitled. The individual, who was not a veteran, assumed the identity of an eligible
    veteran in order to receive medical treatment at VA facilities. Loss to VA exceeds $15,000.




1-16
                                   BENEFIT PROGRAMS

1. DELIVERY OF BENEFITS AND SERVICES


Issue: Timeliness and Quality Issues in Compensation and Pension (C&P) Claims Processing

Conclusion: VA’s claims processing can be improved.

Impact: Better benefit claims service for veterans.

Since the early 1990’s, members of Congress, Veterans Service Organizations, and VA managers have
expressed concern about the timeliness and quality of C&P claims adjudication. VBA C&P system
involves adjudication and overall administration of benefits totaling $20 billion annually to 3.3 million
veterans, widows, children, and parents. Claims for C&P are backlogged due to outdated processing
methods which are unable to cope with increasingly complicated adjudication and appellate rules. This
report summarizes and consolidates recommendations to improve the claims processing system made by
the VA OIG, Congressional commissions, and several task forces established by VA.

From our perspective, the highest priority issues facing VBA are: (i) development of a “corporate”
level database which will provide the basis for making informed decisions on the nature of any proposed
program changes, (ii) development and coordination of a VBA staffing and re-organization plan in
conjunction with VBA’s ongoing efforts to reengineer its claims processing methods, and (iii) reform
and simplification of the statutes and regulations governing the pension program. In addition to these
long-term priority issues, we also recommended specific near-term actions including: (i) improving the
timeliness of medical examinations for veterans applying for C&P benefits, (ii) consolidating authority
and responsibility for the timely and complete adjudication of C&P claims, (iii) expanding the
opportunity for local appeals hearings, and (iv) keeping veterans informed of the status of their claims.
The Acting Under Secretary for Benefits generally agreed with the recommendations and provided
positive comments and VBA’s actions/intentions concerning each recommendation area. (Summary
Report on VA Claims Processing Issues)

Issue: C&P System Messages

Conclusion: VBA can enhance customer service and prevent benefit payment errors by better
managing C&P system messages.

Impact: Enhanced customer service and prevention of annual benefit payment errors totaling
$33 million.

We conducted this evaluation to determine whether C&P system messages served as an effective
control to ensure the accuracy of C&P benefit payments and quality of service to beneficiaries. We
reviewed C&P system messages generated during the 2nd quarter of FY 1997. We found that 44
percent of 159,062 C&P system messages generated did not serve as an effective control to ensure the
quality of customer service or the accuracy of benefit payments. These messages were either not timely
and properly processed, or were not useful and caused unnecessary work. By better managing C&P
system messages, we estimate that VBA can enhance customer service and prevent annual benefit
payment errors of $33 million - $19 million in overpayments and $14 million in underpayments.
                                                                                                 1-17
We recommended the Under Secretary for Benefits improve management of C&P system messages by:
(i) requiring VARO management to monitor the timeliness and accuracy of actions taken on C&P
messages, (ii) eliminating messages that do not impact payment accuracy and customer service,
(iii) encouraging VAROs to identify messages that result in unnecessary work and initiate action to
eliminate them, and (iv) gathering and disseminating best practices for managing C&P system messages.
The Deputy Under Secretary for Management concurred with the findings and recommendations and
provided acceptable implementation plans. (Evaluation of the Effectiveness of VBA’s Controls to Detect
and Prevent C&P Benefit Payment Errors)

Issue: Service-Connected (SC) Disability Determinations

Conclusion: Prior audit recommendations were satisfactorily implemented.

Impact: More accurate and reliable disability determinations.

We conducted a follow-up audit to our 1995 report that concluded that 97 percent of the VBA
determinations of service connection we reviewed were appropriate. While our 1995 audit showed that
the percentage of questionable determinations was low (3 percent), each determination has significant
impact for the claimant. Therefore, we recommended that VBA inform appropriate personnel of the
types of deficiencies identified and take corrective action, if warranted.

Our follow-up audit found that the prior recommendations were implemented, and we provided
information on the changes observed in disability ratings for use by the Department. Results showed
that 33 of 100 veterans reviewed had a total of 61 individual conditions in which disability ratings were
either new or had changed since our prior assessment. These changes increased benefit payments by
$138,000 annually. Rating changes resulted primarily from: (i) changes in the severity of the veterans’
conditions, (ii) new conditions identified, (iii) new evidence related to old conditions, (iv) differing
interpretations of old evidence in which the benefit of the doubt was given to the veteran and, in a few
cases, (v) errors in the original rating. No recommendations were made. (Follow-up Audit of the
Assessment of SC Disability Determinations)

Issue: Social Security Administration (SSA) and VA Death Match Procedures

Conclusion: VBA needs to develop and implement an effective method to identify deceased
veteran beneficiaries and terminate their benefits timely.

Impact: Expenditures could be reduced by about $4 million.

We conducted an audit to evaluate the effectiveness of VBA’s efforts to timely terminate C&P benefits.
Based on information about veterans’ deaths received from SSA, audit results showed that, only 156 of
a sample of 281 veterans reported by SSA as deceased were, in fact, deceased. C&P benefit awards for
42 of 156 deceased claimants were still running; had incorrect termination dates, or had incorrect
suspense dates. Overpayments in these 42 cases totaled $340,000. We estimated approximately
$4 million in erroneous payments were made throughout VBA. Based on our findings, we
recommended that VBA: (i) implement a more effective system for follow-up on claimant death
notifications; (ii) correct beneficiary data base problems and link electronic beneficiary data bases where
necessary; and (iii) coordinate with SSA officials to improve the accuracy of SSA death reporting.
1-18
VBA concurred with all recommendations, and provided acceptable implementation plans. (Audit of
VBA SSA/VA Death Match Procedures)

2. OTHER BENEFICIARY ISSUES


Issue: Servicemembers’ Group Life Insurance (SGLI) Premium Payments

Conclusion: Reserve component reporting and validation procedures need improvement to
ensure the accuracy of life insurance premium payments.

Impact: Improved program integrity and assurance of proper insurance coverage for reservists.

We conducted an evaluation of SGLI premium collections for reservists. In FY 1997, 95 percent of
867,000 reservists participated in the SGLI program. In FY 1996, premium collections for reservists
totaled $163 million, 34 percent of the $475 million collected for SGLI.

We concluded that reporting systems for seven of eight reserve components were inadequate to verify
the accuracy of insurance premiums because they did not separately report premiums for pay and non-
pay status reservists. As a result, we could not confirm the accuracy of about $130 million of the $163
million of life insurance premiums (80 percent). Our review found the Air Force Reserve insurance
premium reporting system was adequate to assess the accuracy of premium payments. However, at one
of two sites visited, we found premiums paid to VA exceeded the amount due by about 30 percent or
about $22,000. These overpayments were made for individuals in non-pay status who had left the
reserve component.

We recommended that Insurance Service management work with uniformed service organization
representatives to improve their reporting systems to ensure premiums paid to VA for all insured
reservists can be verified. We also recommended Insurance Service management share our observations
regarding premium overpayments with Air Force Reserve management, to assist them in improving the
accuracy of SGLI premium payments. The Under Secretary for Benefits concurred with our
recommendations and provided acceptable implementation plans. (Evaluation of Premium Payment
and Reporting Procedures for the SGLI Program)

Issue: Controls Over Disbursements of Matured Endowment Life Insurance Awards

Conclusion: Increased oversight of high risk disbursement will reduce the potential for fraud.

Impact: Reduced vulnerability to fraud.

We conducted this evaluation to determine whether adequate safeguards existed to detect or prevent
irregular disbursements of Matured Endowment (ME) awards. The provisions of an endowment life
insurance policy direct payment of the face amount to the insured after a certain term (e.g. 20 years) or
age (e.g. age 65), or to the beneficiary upon the death of the insured. We reviewed 15,600 ME awards
representing disbursements of $136 million and found there was a need for increased internal controls to
monitor disbursement of computer generated ME awards.



                                                                                                 1-19
The evaluation showed that 90 percent of ME awards were disbursed without sufficient oversight to
detect or prevent irregularities. Although we did not identify any irregular disbursements, we noted 53
awards, valued at $571,000, that should be categorized as high risk and subjected to management
oversight because of their potential vulnerability to fraud. We recommended installing computer
software to identify high risk disbursements for review. The Under Secretary for Benefits concurred
with our recommendation and provided an acceptable implementation plan. (Evaluation of Controls
Over Disbursements of ME Life Insurance Awards)

3. LOAN GUARANTY PROGRAM FRAUD

Loan Origination Fraud

•   In U.S. District Court, an accountant was convicted on charges of conspiracy, aiding and abetting,
    and defrauding the Government. The conviction was the result of a joint investigation by VA OIG,
    FBI, and the SSA-OIG, which disclosed that over a 3-year period, the individual and four co-
    conspirators engaged in a scheme to secure mortgages for individuals unable to qualify for loans
    through the normal mortgage process. The scheme involved submitting false documents and
    statements concerning the purchase of 26 VA owned properties. The individual, in his capacity as
    the accountant, falsified his clients’ employment and credit histories on mortgage qualification
    documents. One of the co-conspirators has already executed a pre-trial diversion agreement
    requiring a payment of $12,000 in restitution. Efforts in locating the last two co-conspirators are
    ongoing. Loss to VA is in excess of $150,000.

•   An individual who previously had pleaded guilty in U.S. District Court to charges of providing false
    information in the process of procuring a VA loan also has pleaded guilty in state court to two
    felony violations for possession with intent to distribute dangerous drugs and cultivation of
    controlled substances. This prosecution is the result of evidence seized during execution of Federal
    search warrants by VA OIG special agents. Included with evidence seized in connection with VA’s
    loan fraud case were multiple kilograms of harvested marijuana and marijuana under cultivation.

•   An individual acting in various capacities as president, owner or co-owner of realty, investment and
    service companies was sentenced in U.S. District Court to 60 months’ confinement, 3 years’
    supervised probation, and to make restitution in the amount of $517,384 to VA, the Department of
    Housing and Urban Development (HUD) and a bank. In addition, the individual forfeited his
    personal holdings totaling more than $2 million. The sentencing followed a guilty plea in response
    to evidence developed during a joint VA, HUD, and FBI investigation, that disclosed the individual
    purchased low-cost distressed properties, cycled them through front companies to inflate their
    assessed value, and then sold them to fraudulently qualified applicants.

•   An individual was sentenced to 10 months’ imprisonment, 3 years’ probation, and ordered to pay
    $31,794 in restitution to VA following an indictment in U. S. District Court on charges of making
    false statements and false representations. A joint VA OIG and U.S. Secret Service investigation
    revealed the individual had made false statements to VA regarding his employment, income, and
    social security number in order to qualify to purchase a VA foreclosed home.

•   An individual pleaded guilty in U.S. District Court to a one-count information charging him with
    making a false statement to the Government. A VA OIG investigation revealed the individual, in

1-20
    order to qualify for a VA guaranteed home mortgage through debt reduction, divested himself of,
    and then immediately re-acquired, personal property and provided VA only the documentation
    reflecting the divestiture. In addition, he had the new finance company delay the normal credit
    bureau reporting until after the home mortgage closing date. The mortgage is scheduled for
    foreclosure, with a potential loss to VA of $30,000. Sentencing is pending.

•   A real estate sales broker who co-owned a realty company pleaded guilty in U.S. District Court to
    conspiracy to defraud the U.S., making false statements to VA, and using social security account
    numbers fraudulently. An investigation revealed the individual and co-conspirators attempted to
    obtain VA properties and financing under the Department's Vendee Loan Program by using the
    names and social security numbers of deceased persons and fictitious individuals as nominees and by
    submitting false and fraudulent financial documents designed to create the appearance that the
    nominee buyers were credit worthy. The real estate sales broker faces a maximum sentence of
    5 years’ imprisonment; sentence is pending.

•   An individual pleaded guilty in U.S. District Court to one count of making a false statement and
    three counts of wire fraud. A VA OIG investigation revealed the individual owned a firm through
    which he fraudulently obtained titles to real property. A co-conspirator pleaded guilty to one count
    of tampering with a witness, a misdemeanor. The individual and the associate await sentencing.

Equity Skimming

•   An individual was sentenced in U.S. District Court to 12 months' incarceration, 36 months'
    probation, ordered to pay a fine of $2,500 and to make restitution in the amount of $24,220 to VA.
    A joint investigation by VA OIG and HUD OIG revealed the individual assumed the home loans of
    VA guaranteed properties and HUD insured properties, and then collected rent money from tenants
    placed in the homes, while failing to make payments to the lenders. He filed 81 bankruptcies on
    these properties, using fictitious names, which stalled foreclosure and enabled him to continue
    collecting rent. Losses to VA and HUD totaled $171,000.

Surety Bond Fraud

•   An attorney pleaded guilty in U.S. District Court to 1 count of making a false statement and 3
    counts of wire fraud, in response to a 24-count indictment that charged him and two of his
    associates with violations of Federal statutes. A joint VA OIG and Department of Justice
    investigation disclosed the individual was part of a real estate development and investment syndicate
    that used fraudulently acquired titles to real property as collateral on personal surety bonds they
    issued to contractors doing work for the Government. Loss to the Government amounted to
    approximately $100,000 when contractors, who had obtained surety bonds from the individuals,
    defaulted on their contracts. Prosecution is pending on the attorney’s two associates. Sentencing is
    pending.




                                                                                                 1-21
4. BENEFICIARY FRAUD

Compensation Benefits Fraud

•   An individual was sentenced in U.S. District Court to 46 months’ imprisonment, 3 years’ supervised
    probation, and ordered to pay restitution of $447,182 following his conviction on 40 counts of mail
    and wire fraud, and false statements. A joint VA OIG and FBI investigation revealed that, over a
    period of more than 10 years, the individual posed as a wheelchair-bound veteran who had lost the
    use of his right arm and right leg, collecting over $500,000 in compensation and other benefits from
    VA. Testimony provided by a number of witnesses during his trial established that he was not
    disabled and, in fact, ran a successful business painting homes and office buildings.

•   An individual pleaded guilty in U.S. District Court to one count of making false statements and was
    sentenced to 6 months’ home confinement, 5 years’ probation, and ordered to make restitution to
    VA in the amount of $30,162. The individual was receiving VA service-connected benefits when he
    re-enlisted in the Army in 1994 and failed to notify VA of his re-enlistment. His failure to notify VA
    resulted in the fraudulent receipt of benefits to which he was not entitled.

Dependency and Indemnity Compensation (DIC) Benefits Fraud

•   An individual was sentenced in U.S. District Court to 90 days’ home confinement, 1-year probation
    and was ordered to pay $175,118 in restitution to VA. A VA OIG investigation revealed that the
    individual illegally diverted VA DIC funds directed to her deceased mother.

•   A husband and wife were each sentenced in U.S. District Court to 60 months' supervised release and
    to pay $104,000 in restitution following their guilty pleas. A joint investigation conducted by the
    VA OIG, Air Force Office of Special Investigations, and United States Secret Service revealed that
    the individuals conspired to defraud the Government of $207,287 in VA DIC benefits and Air Force
    pension benefits paid to one individual’s deceased mother.

•   An individual was sentenced in U.S. District Court to 5 years’ probation, 3 months’ home
    confinement, and was ordered to make restitution to VA in the amount of $50,043. The individual
    previously was convicted on one count of theft of Government property. A VA OIG investigation
    determined that over a 5-year period, the individual fraudulently endorsed U.S. Treasury Checks
    representing DIC benefits payable to his deceased mother.

•   An individual was sentenced in U. S. District Court to 8 months’ incarceration, 36 months’
    supervised probation, and restitution of $14,035 following a guilty plea to one charge of credit card
    fraud. Evidence of the credit card fraud was disclosed during the execution of a Federal search
    warrant by VA OIG agents in connection with the investigation of a VA benefits fraud case
    involving the individual’s spouse. A joint investigation by VA OIG, a state Employment
    Development Department, and the Postal Inspection Service resulted in charges being filed. The
    spouse previously was sentenced to 8 months’ imprisonment, 3 years’ probation, and ordered to pay
    restitution to VA in the amount of $47,225. In addition, the individual is subject to deportation
    proceedings because he is now classified as a felon for violating a fraud statute.


1-22
•   An individual pleaded guilty in U.S. District Court to a four-count indictment charging her with wire
    fraud in connection with the theft of $83,680 in electronically deposited DIC benefits funds paid to
    her mother, the spouse of a deceased veteran. A VA OIG investigation revealed the individual, who
    had power of attorney over her mother’s bank account, failed to notify VA or the bank of her
    mother’s death in 1988, thereby causing VA to continue to deposit benefits payments into the
    account. The individual used the deposited funds for her own use. A sentencing date is pending.

•   An individual pleaded guilty in U.S. District Court to a one-count information charging him with
    theft of public funds. A VA OIG investigation revealed that, over a 15-year period, the individual
    cashed his deceased mother’s DIC checks. Loss to VA totaled more than $100,000.

•   A former VAMC housekeeping aide was indicted by a Federal grand jury. The individual did not
    report his mother’s death to VA; instead, he intercepted and cashed $86,511 in VA benefits checks
    that were intended for his mother. Prosecution is pending.

•   An individual pleaded guilty in U.S. District Court to theft of Government property. The individual
    previously had been indicted on charges of receiving VA widow’s benefits totaling $39,162 to
    which she was not entitled. The individual failed to notify VA of her remarriage, which would have
    terminated her entitlement to benefits. Sentencing is pending.

•   An individual was indicted in U.S. District Court, charged with one count of theft and one count of
    submitting a false statement to the Government. The charges resulted from a VA OIG investigation
    which disclosed the individual submitted multiple eligibility verification reports to VA falsely stating
    she had not remarried since the death of her veteran husband. As a result, she received more than
    $21,000 in benefits to which she was not entitled.

Pension Benefits Fraud

•   An individual pleaded guilty in U.S. District Court to a one-count criminal information charging him
    with theft of Government property. During a 4-year period, the individual, who was receiving
    benefit payments from VA under its Improved Pension Program, submitted fraudulent documents
    relating to his income and marital status. Subsequently, he failed to notify VA of changes to his
    financial situation, which rendered him ineligible to continue to receive benefits. Loss to VA is in
    excess of $30,000. Sentencing is pending.

•   A former VA rating specialist at a VAMC and Regional Office pleaded guilty in U.S. District Court
    to one count of mail fraud. The individual had previously served as the Veteran Services Officer
    and was responsible for the operations of the entire Veterans Services Division. The individual had
    been indicted in U.S. District Court on one count of mail fraud. The indictment charged that the
    individual devised a scheme for obtaining VA benefits to which he was not entitled by making false
    representations to the Government.

Fiduciary Fraud

•   An individual who previously pleaded guilty to misappropriation by a fiduciary was sentenced in
    U.S. District Court to 4 months’ imprisonment, 4 months’ home confinement with electronic
    monitoring, 3 years’ supervised release, and ordered to pay restitution to the veteran involved in the


                                                                                                   1-23
    amount of $14,682. The individual converted, for her own personal use, funds belonging to a
    disabled and incompetent veteran for whom she was responsible and who was entrusted to her care.

•   An individual pleaded guilty in U.S. District Court to embezzling VA benefits being paid to his
    grandmother, a widow of a disabled veteran. The individual was appointed as her fiduciary in 1990
    and embezzled approximately $6,800 from his grandmother’s account.

Educational Benefits Fraud

•   The Civil Division of the U.S. Attorney's Office is continuing to obtain civil settlements from
    student veterans who received VA education benefits but did not attend regularly scheduled classes
    at a community college. Bribes were paid to faculty staff, including the Chairman of a department
    at the college, to ensure that high grades would be given with no class attendance required. Most
    recently, the Civil Division obtained additional settlement agreements in the amount of $249,363
    from 14 students, for a total to date of 77 students who have agreed to pay a total of $1,261,400 in
    restitution. Negotiations are continuing with additional students.




1-24
                               FACILITIES MANAGEMENT

1. FACILITY CONTROLS OVER RESOURCES


Issue: Lease Administration

Conclusion: VA should ensure lease requirements are reasonable and provide lease management
training for contracting officers.

Impact: Improved lease management.

We conducted an audit of VA Real Property Leased Space to determine whether leases were established
economically and to evaluate the effectiveness of the lease administration process. We also reviewed VBA’s
leased space to determine if it was reduced commensurate with recent staffing reductions. VA had 654 leases
with annual costs of $171 million as of March 1996.

Our review found that VHA and VBA generally established leases economically, administered leased
space effectively, and reduced leased space when appropriate. VBA negotiated reduced rental rates
when General Services Administration (GSA) billed for more space than VA actually occupied and
when commercial rental rates declined. VBA also reduced space when the number of employees
declined and established a goal of reducing annual rent expense by $8 million by FY 1999.

VHA is considering increasing the threshold for contracting officer approval of leases from $300,000 to
$1 million. However, not all facilities have contracting officers with the proper lease training and
experience. The audit also found that VA is paying GSA significantly more than the market rate for
some leased space. In five cases, VA is paying $1.6 million more yearly than the current market value.
We also found that many contract files did not contain adequate documentation to confirm that
competition was solicited.

We recommended that management: (i) develop procedures to ensure that GSA rental rates are
consistent with current fair market values and to appeal rates found to be significantly higher, (ii) curtail
plans to increase contracting officer lease approval authorities, (iii) improve training for VAMC
contracting officers, and (iv) improve documentation of the lease process in the lease files. The Under
Secretary for Health agreed with our recommendations and provided acceptable implementation plans.
(Audit of Department of Veterans Affairs Leased Space)

Issue: VA’s Capital Asset Acquisition Practices and Efforts

Conclusion: VA is making good progress towards a comprehensive capital program. Policy is
needed for VISN-level investments, and alternative capital funding strategies should be explored.

Impact: A more comprehensive capital program.

The evaluation assessed VA’s capital asset acquisition practices and efforts to implement a capital
programming process. In FY 1997, VA’s capital investment totaled about $1.3 billion. Capital
programming is defined as a comprehensive process for planning, budgeting, procuring, and managing

                                                                                                    1-25
capital assets that include land, structures, equipment, intellectual property, and information technology
hardware and software. Historically, VA has not had a comprehensive process. VA did not always
consider alternatives to proposed acquisitions and did not use benefit-cost analysis to support decisions.

Recent VA initiatives, such as the establishment of the Capital Investment Board, were steps in the right
direction. These efforts have focused on high cost, high risk investments that require VACO approval.
To continue progress toward a comprehensive capital program, VA needed to address two issues. First,
most capital investment decisions are now made at the VISN level, and existing policy does not specify
to what extent capital programming principles and techniques should be applied to VISN-controlled
investments. Second, VA’s programming efforts have been hindered by a funding process that provides
two major sources of funds for capital assets, the medical care appropriation and the construction
appropriation. This process has resulted in the selection of more costly capital alternatives simply
because funds were available in one appropriation and not in the other.

We recommended the Acting Assistant Secretary for Management and the Under Secretary for Health
work together to: (a) develop policy on VISN-controlled capital investments, (b) provide VISN staff
with technical guidance in performing benefit-cost analysis and other programming principles and
methods, and (c) explore the feasibility of using alternative strategies for funding capital investments.
Management concurred with the recommendations and provided acceptable implementation plans.
(Evaluation of VA Capital Programming Practices and Initiatives)

Issue: Use of Prior Year (PY) Funds to Pay for Work on Nonrecurring Maintenance (NRM)
Construction Projects

Conclusion: VAMCs need additional guidance to help ensure appropriate use of PY funds.

Impact: Better use of $3.8 million.

We conducted this audit to evaluate the effectiveness of management controls over the use of PY funds
to pay for work on NRM construction projects. PY NRM funds are the residual unobligated funds
remaining in an appropriation account at the end of a fiscal year, and are to be used only to pay for
work within the scope of NRM project contracts. During the 4-year period FY 1993-1996, $45.9
million in PY funds were approved for use in NRM projects, an average of $11.5 million yearly.
Review of 12 NRM projects at 4 VAMCs found that: (i) VAMCs were able to access and use PY
funds without obtaining Office of Financial Policy (OFP) approval as required by VA policy; (ii) PY
funds were used to pay for additional work that was outside the scope of the contracts in 11 of the 12
projects reviewed; and (iii) VAMCs incurred additional costs by using PY funds to address problems
that could have been avoided or mitigated if the VAMCs had followed existing NRM project
management guidance. We concluded that improving controls over the use of PY funds could reduce
PY funds usage by over $3.8 million a year.

We recommended the Under Secretary for Health and the Acting Assistant Secretary for Management:
(i) transfer responsibility for monitoring the use of PY funds from OFP to VHA, (ii) establish controls
to ensure that VAMCs obtain approval to use PY funds and use PY funds only for work within the
scope of contracts, (iii) provide detailed policy guidance on the use of PY funds to VAMCs, and (iv)
provide training on the use of PY funds to VAMC staff. Management concurred with the
recommendations and provided planned actions responsive to the recommendations. (Audit of VAMC
Use of PY Funds on NRM Construction Projects)

1-26
2. NEW VARO BUILDING AT BAY PINES, FL


Issue: Structural framing design problems which became apparent during construction.

Conclusion: Architect/Engineering firm and its engineering subcontractor providing VA with
structural plans that contained structural framing design errors.

Impact: Would the structural framing design, as modified, result in a building that safely met
VA requirements?

In response to requests from former Secretary of Veterans Affairs, Jesse Brown, and from Congressman
Bill Young, the OIG reviewed structural framing problems which became apparent during construction
of the new VARO, Bay Pines, FL. The purpose of our review was to determine why these problems
occurred, whether the design changes would result in a building that safely met VA requirements, and
what it will cost to fix the structural framing problems.

The review determined the major cause of the structural design problems was due to a private
Architect/Engineering (A&E) firm and its engineering subcontractor providing VA with structural plans
for the project which contained structural framing design errors. Although VA communicated serious
concerns about the quality of the structural designs during its oversight reviews, VA and the A&E firm
did not adequately follow up on these concerns to ensure they were resolved before approving the plans
for construction bidding. OIG hired a structural engineering consultant to assess the sufficiency of the
structural framing design corrections. The consultant determined the structural framing design, as
modified, would safely support VA’s standard requirements for VARO buildings in all areas of the
building except the mechanical rooms. However, the consultant determined the mechanical rooms’
designs were more than adequate for their intended purpose because the equipment in them requires
substantially less floor loading capacity than VA specifications require. In regard to the cost issues, the
total direct and indirect costs associated with the structural design problems have not been determined.
The engineering subcontractor to the A&E firm has reimbursed VA $706,000 to date.

We made recommendations to the Chief Facilities Management Officer, as appropriate, to address
issues identified during our review. The Chief Facilities Management Officer concurred with all
recommendations and provided implementation plans that meet the intent of all recommendations.




                                                                                                  1-27
                             FINANCIAL MANAGEMENT

1. VA’S FINANCIAL STATEMENTS


Issue: VA’s Consolidated Financial Statements (CFS) for FY 1997 and 1996

Conclusion: Report delayed due to expanded coverage and other factors.

Impact: Six audit projects were cancelled to reallocate staff to the Financial Statement Audit.

The completion of the audit of VA’s FY 1997 CFS has been delayed due to several factors which
expanded the workload associated with this year’s audit. These factors include the following:

•   The audit of the Governmentwide CFS has expanded the scope, depth, and staff hours necessary for
    auditing VA’s statements.

•   Weaknesses in VA’s automated data processing controls detected during the audit has resulted in
    the OIG increasing our efforts to audit compensating controls identified by the Department.

•   The new Federal Financial Accounting Standard, Accounting for Liabilities of the Federal
    Government (SFFAS No. 5), expanded the need for actuarial estimates of out-year veterans’
    compensation payments.

To complete the additional work required, the Office of Audit cancelled 6 audits to make staff available
for the financial statement audit. These staff assignments will continue well into FY 1998.

2. OTHER FINANCIAL CONTROL ISSUES


Issue: Collection of Debts Owed VA

Conclusion: VA needs to improve debt collection.

Impact: Collection of debts totaling over $249 million.

In FY 1996, the Office of Audit initiated a multi-phase evaluation of VA’s Debt Management Program.
The purpose of the evaluation is to help VA management optimize their goals to prevent debts, improve
debt collection results, and enhance operational efficiencies. At the beginning of FY 1997, debts owed
to VA totaled about $4.2 billion. These debts represent potential revenues to the VA and/or the
Treasury Department and include: defaults on VA loan guarantees ($1.4 billion), portfolio/direct loans
for housing ($1.1 billion), unpaid medical care debts owed by veterans and third party insurers ($750
million), overpayment of veterans benefits ($600 million), and debts owed by other federal agencies
($400 million).

Through March 1998, audit of VA’s debt management program focused on identification, prevention
and recovery of overpayments of C&P benefits, and billing and collection of medical care owed by
veterans and third party insurers. To date we have made recommendations to:
1-28
•   Establish debts totaling approximately $53.2 million,
•   Prevent new debts caused by benefit overpayments totaling $86.9 million annually,
•   Enhance debt collection by about $103 million, and
•   Streamline operations and achieve annual cost efficiencies totaling about $6.7 million.

Overall audit results to date identified monetary benefits totaling over $249 million. In addition to
realizing significant monetary benefits, these audits identified opportunities to help enhance service to
veterans by identifying benefit underpayments of about $14 million, and preventing the inappropriate
billing or income verification of 14,000 veterans.

Issue: Medical Care Collection Fund (MCCF) Billing Practices and Collection Results

Conclusion: VAMCs could increase collections through use of collection tools developed by the
MCCF Program Office, and by obtaining insurance data from veterans.

Impact: Enhanced revenues.

We conducted this review as part of our nation-wide audit of the MCCF Program, the purpose of which
is to assess MCCF billing practices and collection results and to identify the best practices to enhance
revenues. The MCCF program at VAMC Brockton/West Roxbury is considered a successful MCCF
operation, with FY 1996 collections totaling over $7.9 million, 187 percent of their minimum goal. We
evaluated a statistical sample of FY 1996 discharges at the VAMC and concluded that collections could
be increased through use of collection tools developed by the MCCF Program Office, and by improved
collection of insurance data from veterans, insuring all inpatient care is appropriately billed, and by
following up timely on delinquent bills. Management officials took corrective action on the cases we
identified. (Evaluation of the Medical Care Cost Recovery, VAMC Brockton/West Roxbury, MA)




                                                                                                 1-29
                EMPLOYEE INTEGRITY AND OTHER ISSUES

1. EMPLOYEE AND THIRD-PARTY INTEGRITY


Issue: Investigations of Misconduct and/or Illegal Acts by Employees and Third Parties

Conclusion: Instances of theft, embezzlement, bribery, fraud, and other acts of misconduct were
disclosed.

Impact: Individuals are held accountable for illegal acts.

Employee Theft/Diversion of Pharmaceuticals

•   After an extensive VA OIG undercover investigation, two registered pharmacists pleaded guilty in
    U.S. District Court to a criminal information charging them with numerous offenses, including
    conspiracy to commit theft, misbranding of pharmaceuticals, and tax evasion, relating to the
    pharmaceutical business they co-owned. Both individuals admitted in court that they purchased and
    resold more than $200,000 worth of pharmaceuticals they knew to be stolen from two VAMCs.
    Sentencing is pending.

•   A VAMC pharmacy supervisor was terminated from his employment as a result of information
    developed by VA police. A VA OIG investigation revealed that, over a 2-year period, the
    pharmacist accessed a VA computer system; ordered drugs to be sent by mail in the names of
    inactive VA patients, and had them sent to his home address. A search warrant executed by VA
    OIG on the individual’s residence resulted in the seizure of prescription pharmaceuticals, including
    controlled substances, prescribed in the names of VA patients.

•   A former VAMC staff pharmacist was charged with five felony charges for diverting controlled
    drugs from a VA pharmacy, sentenced to 4 years’ probation, and ordered to pay a special
    assessment of $500.

Theft and Embezzlement

•   One former and two current VA employees pleaded guilty in U.S. District Court to the theft of
    Government property. The guilty pleas resulted from a 1-year undercover operation by special
    agents of the VA OIG with assistance from the FBI, VA Office of Administration, and VA Office of
    Security & Law Enforcement. The three employees were assigned to VACO as laborers and had
    unfettered access to VA equipment as part of their duties. During the course of the undercover
    operation, the three employees sold computers, printers, and furniture, among other items, to VA
    OIG undercover agents, with many of the items contained in their original delivery cartons. The
    value of the stolen property was approximately $40,000. As part of the plea agreements, the two
    current employees agreed to resign from Government service.

•   A former VAMC biomedical engineering technician supervisor was sentenced to 24 months in
    prison, 3 years’ probation, and ordered to pay $13,132 in restitution to VA. The sentence was the
    result of a guilty plea in U.S. District Court to one count of theft of Government property. A joint

1-30
    VA OIG and FBI investigation revealed the individual stole VAMC medical equipment, which he
    pawned for cash, and also used a Government credit card to purchase personal items.

•   A former VAMC chief of environmental services and her accomplice each pleaded guilty to one
    felony count of filing false claims, resulting from a 35-count indictment charging them with
    conspiracy, false claims, theft of Government funds, and money laundering. A joint VA OIG and
    FBI investigation revealed the service chief approved payments of VA funds in excess of $73,760 to
    a decorating business operated by the accomplice, who was living with her at the time, for services
    that were not rendered. The payments were kept at a level commensurate with the service chief’s
    approval authority, in an effort to avoid scrutiny. Sentencing is pending.

•   A husband and wife, both former VAMC medical ward clerks, were indicted in U.S. District Court
    on two counts each of credit card fraud. A joint VA OIG and Postal Inspection Service
    investigation revealed the husband stole pre-approved credit card applications from mail intended
    for hospital inpatients, accessed the hospital’s records to obtain personal patient information, and
    filled out the applications. He stole the credit cards when they arrived in the mail and then used the
    cards to acquire cash and merchandise. The couple applied for 12 cards under the names of VA
    patients and obtained cash and merchandise totaling approximately $26,000. Special agents
    executed five search warrants on the home, automobiles, and persons named in the investigation.
    They were able to seize many of the items that had been fraudulently obtained.

•   A former VAMC transportation employee was charged with theft of Government funds. A VA
    OIG investigation disclosed the employee stole a U.S. Government Fleet Services Credit Card and
    made unauthorized personal gasoline charges on the card totaling more than $4,500.

•   A VAMC agent cashier was terminated following an indictment by a Federal grand jury on one
    count of theft of Government property for stealing approximately $23,000, while acting as agent
    cashier. A trial date is pending.

•   An employee was terminated from his VA position of 14 years in response to evidence that he had
    embezzled at least $3,100 from the account of a VA Employees Association-sanctioned bowling
    league at the facility.

Acceptance of Bribes, Gratuities, and Conflicts of Interest

•   An individual who served as an uncompensated VAMC employee and on the board-of-directors of
    the VAMC affiliated non-profit research corporation pleaded guilty to 16 counts of theft by taking,
    11 counts of theft of services, 2 counts of false statements, and various charges relating to
    prescribing drugs. As part of the plea agreement, the individual will serve 5 years in prison, 10
    years' probation, pay approximately $175,000 in fines and expenses, and $1.1 million in restitution
    and forfeitures. The offenses were committed in connection with drug research conducted while the
    individual was affiliated with a state medical college and the VAMC. The research monies received
    from pharmaceutical companies should have been remitted to the VAMC and the non-profit
    corporation to help pay the costs of laboratory services and staff salaries. Instead, the money went
    directly to the two individuals or shell companies established by them. The individual has agreed to
    disqualify himself from participating in future drug research and is awaiting trial.



                                                                                                  1-31
•   Two VAMC employees, one the foreman of the engineering service machine shop and the other the
    foreman of the environmental management service, admitted they had accepted bribes from a
    government contractor in return for contracts for tools, hardware, landscaping supplies, and services
    valued at approximately $37,000. They each pleaded guilty in U.S. District Court to a one-count
    criminal information charging conspiracy to accept unlawful gratuities from the contractor and his
    wife. A VA OIG investigation revealed that, over a 2-year period, the two accepted cash bribes as
    well as a chain saw. Each faces a maximum of 5 years in Federal prison, a fine, and an order of
    restitution at sentencing.

•   An employee of a War Veterans Service Office at a VA Regional Office and Insurance Center has
    resigned from his position following a VA OIG investigation that disclosed that he had been taking
    money from veterans in return for assisting them with their VA claims. It is alleged the individual
    requested and received between $200 and $1,000 each from about 86 veterans over a 6-year period.
    The U.S. Attorney’s Office is considering prosecution of this matter.



•   A former VAMC psychologist was indicted in U.S. District Court concerning a scheme to defraud
    the Government in connection with the receipt of workers’ compensation benefits. A VA OIG
    investigation determined that, for more than 13 years, the individual received workers’ benefits in
    excess of $300,000 for a back injury alleged to have occurred while working at the VAMC. During
    this time, however, he was employed as a co-director of a psychotherapeutic evaluation program, an
    adjunct professor at a college, and a fiscal director of a school’s transportation department. He also
    was self-employed as a psychologist. In order to avoid detection, he used his son’s social security
    number. At the time of the individual’s arrest preceding the indictment, search warrants were
    executed at the individual’s residence and at a business operated by him. Both searches produced
    numerous documents reflecting employment during the period he was receiving benefits.

•   A former VAMC laborer pleaded guilty in U.S. District court to one count of workers’
    compensation fraud. A VA OIG investigation disclosed the individual submitted false claims
    indicating an inability to work due to an on-the-job injury, while actually working at a convenience
    store. Loss to VA is in excess of $130,000. Sentencing is pending.

•   An former VAMC pharmacy assistant pleaded guilty to a two-count criminal information charging
    her with one count of false statements to obtain federal employee’s compensation and one count of
    use of a false social security number. A joint VA OIG and DOL OIG investigation revealed the
    individual was employed as a retail sales clerk while collecting workers’ compensation and reporting
    no income to the DOL. Loss to VA was in excess of $52,000.

•   A former VAMC electrician foreman paid $35,850 to satisfy a civil judgment against him in U.S.
    District Court. The individual previously pleaded guilty to submitting false statements to the
    Government purporting that he was unable to work due to an on-the-job injury. He also admitted
    that, while receiving Federal workers’ compensation benefits, he was employed as a licensed
    electrician.




1-32
Employee Misconduct

•   A former veterans benefits counselor, who had pleaded guilty to charges of bribery of a public
    official and tampering with a witness, was sentenced in U.S. District Court to 5 months’
    incarceration, 5 months’ home detention, 36 months’ supervised probation, and was ordered to
    perform 200 hours’ community service in lieu of a fine and to make full restitution to the victims. A
    VA OIG investigation revealed that, while employed as benefits counselor, the individual solicited
    and accepted payments from widows of deceased veterans in order to expedite and process their VA
    benefits claims. He was removed from Government service during the course of this investigation.

•   A certified VAMC registered nurse anesthetist was sentenced in state court to 2 years’ probation,
    21 days’ incarceration, 100 hours’ community service, and ordered to pay $1,200 probation fees
    following an earlier conviction for practicing medicine without a license. A joint investigation by
    VA OIG and local police disclosed that from 1993 to 1997, the individual took sick leave from the
    VAMC while operating a private clinic where she acted as a physician. As part of her sentence, she
    must make full restitution to all patients of the clinic who filed private insurance claims.

•   A former VAMC nurse was found guilty in U.S. District Court of one count of making a bomb
    threat by telephone, a violation of Title 18, U.S.C. The individual was charged with having made
    the bomb threat to a particular building at the VAMC in which she had worked, in retaliation against
    co-workers who reported her as a suspect in numerous deaths. As a result of recurring bomb
    threats, patients were evacuated from the building which housed the intensive care unit. The
    individual was held without bail, and on suicide watch, pending a detention hearing. She had been
    previously held in home detention, but had attempted to remove the monitoring bracelet worn to
    track her whereabouts.

•   An individual pleaded guilty in U.S. District Court to a charge of false statements stemming from
    the misrepresentation he made concerning the nature of a prior conviction when he applied for a
    position as a VAMC medical doctor in a psychiatric residency program. As a result of a plea
    agreement, he was sentenced to 42 months’ imprisonment and waived his right to appeal. In 1985,
    he was convicted of aggravated assault arising from the non-lethal poisoning of his co-workers
    while employed as a paramedic. In his April 1993 application, he falsely represented that the assault
    conviction arose from a bar room brawl. He began his residency in July 1993.

•   A former VAMC employee was indicted in U.S. District Court on charges of wire fraud and making
    false statements to VA relating to a fraudulent scheme to obtain salary payments from the VAMC.
    A VA OIG investigation revealed the individual submitted fraudulent credentials in order to obtain
    his original appointment as a VAMC staff nurse, and periodically updated those false credentials
    during his appointment there. He falsely stated he had been a registered nurse in Puerto Rico and
    received a bachelor’s degree in nursing. As a result of the false information the individual provided,
    he was promoted to nursing care coordinator. He also had applied for the position of VAMC
    medical care manager, stating that he had a master’s degree and that he was certified as a critical
    care nurse. The investigation into his credentials revealed there is no record of his ever having been
    licensed as an nurse or even having received a bachelor’s or master’s degree, and that he is not a
    certified critical care nurse.

•   The U.S. Attorney’s Office filed a criminal information in U.S. District Court charging a VAMC
    histopathology technician with one count each of conspiracy and falsely preparing Federal income

                                                                                                  1-33
    tax returns. The information was filed as a result of a joint VA OIG, IRS, and U.S. DOL
    investigation into allegations of tax preparation fraud and union embezzlement on the part of VA
    employees at the VAMC. The individual allegedly conspired to embezzle funds from an American
    Federation of Government Employees local union, resulting in violations of various statutes
    including mail fraud, making false statements and concealing material facts from the DOL. It is also
    alleged that he and another VA employee prepared fraudulent Federal income tax returns for VA
    employees at an office he established adjacent to the morgue inside the VAMC.

•   A VAMC mail center supervisory clerk was arrested by VA OIG special agents on an outstanding
    arrest warrant related to a felony forgery violation. The outstanding warrant was discovered during
    the course of a joint investigation conducted by VA OIG and VAMC police into suspected mail
    center theft.

Drug Trafficking

•   An individual was sentenced in U.S. District Court to 12 months in a halfway house and 36 months’
    probation. The individual, a VA employee and one of two defendants, sold heroin to an undercover
    agent at a VAMC. Both were arrested by VA OIG and Drug Enforcement Administration agents.
    At an earlier court appearance, the individual had pleaded guilty to possession with intent to
    distribute controlled substances.

•   An individual pleaded guilty in state court to one count of a three-count indictment charging him
    with distribution of a controlled dangerous substance in and near a VAMC. The individual was
    sentenced to 10 years’ incarceration with 8 years’ suspended, and 3 years’ probation upon release
    from prison. A joint investigation by VA OIG special agents and local police revealed the individual
    regularly sold drugs on and near the property of the VAMC. The individual also was identified as a
    heroin distributor who subsequently sold heroin to a VA undercover agent.

Other Criminal Activity

•   An individual who volunteered at a VAMC was arrested by special agents of the VA OIG and the
    Specialized Investigations Regional Task Force (SIRTF) pursuant to a warrant issued charging him
    with sodomy in the third degree. A joint VA OIG, VA police, and SIRTF investigation determined
    the individual repeatedly had sodomized an emotionally disturbed individual in the men’s room at
    the VAMC. The individual confessed to the crime and his arraignment is pending.

2. FORENSIC DOCUMENT LABORATORY


Issue: Documents Continue to Play an Important Role in Fraud

Conclusion: State-of-the-Art techniques aid investigators.

Impact: OIG Forensic Laboratory plays critical role in assisting VA.

The OIG operates a nationwide forensic laboratory service for fraud detection, which can be utilized by
all elements of VA. The types of requests routinely submitted to the laboratory include handwriting
analysis, typewriting, inks, paper, photocopied documents, and suspected alteration of official

1-34
documents. During this reporting period, the forensic laboratory received 513 documents from various
non-OIG sources that required 1,522 laboratory examinations. The laboratory received 614 additional
pieces of evidence in 5 OIG criminal investigations, which required 1,303 laboratory examinations.
There were a total of 40 laboratory reports issued during the period covered by this report.

                                 LABORATORY CASES FOR THE PERIOD
                                       REQUESTER                      CASES
                                                                    COMPLETED
                           OIG Office of Investigations                   5
                           Regional Offices                              29
                           VA Top Management                              6
                                           TOTAL                         40


The following are examples of the fraudulent activities that were involved and the laboratory work that
was completed:

•   Court exhibits and testimony were provided in the trial of a former VAMC registered nurse.
    Laboratory examinations identified the nurse as the author of signatures on documents used to
    purchase electronic devices that she used to alter her voice in bomb threats made to the VAMC. The
    jury found the registered nurse guilty of making bomb threats by telephone. She is awaiting
    sentencing.

•   In one of five similar cases, a veteran submitted medical records in support of his benefit claim. The
    records were examined to determine if they were executed on the dates appearing on the records. It
    was determined that the medical records were fraudulent utilizing ink, typewriter, and handwriting
    examinations. Based upon the laboratory results, the VARO proposed forfeiture of VA benefits.

•   Testimony and laboratory exhibits were provided in a U.S. Merit Systems Protection Board hearing
    pertaining to an investigation conducted by the VA Office of Security and Law Enforcement. An
    individual authorized the creation of fraudulent identification cards and badges for himself and two
    other individuals for personal use. The employment of all individuals was terminated based upon the
    investigation and laboratory results. One individual appealed his termination, which required the
    VA OIG forensic examiner to testify in this case. The Board upheld the termination of the
    individual.

•   A joint investigation was conducted by VA OIG and HUD OIG of two individuals involved in loan
    and bankruptcy fraud. The investigation disclosed that titles to 10 VA and HUD properties had
    been obtained through the use of fictitious names. Over 60 bankruptcies relative to these properties
    had been filed. Laboratory examinations identified the individuals responsible for the creation of the
    fraudulent documents. Both individuals were indicted and pleaded guilty to charges of equity
    skimming and bankruptcy.




                                                                                                  1-35
3. SPECIAL INQUIRIES


Issue: Special Inquiries of Alleged Employee Misconduct or Mismanagement

Conclusion: Various conditions were substantiated, and willful misconduct or mismanagement
was at times disclosed.

Impact: Reimbursements, fines, administrative sanctions, and other corrective actions

During the period, we issued 12 reports, that are summarized in the following paragraphs:

•   A special inquiry substantiated a physician directed research funds to certain VAMC employees in
    the form of supplements to their VA salaries. We found that, contrary to Federal law, four
    employees received a total of $62,459 from a pharmaceuticals company for performing official
    duties, and that the principal researcher on projects funded by the company directed the company to
    make these payments. Subsequent to the U.S. Attorney’s office declining criminal prosecution on
    the matter, we recommended that appropriate action be taken against the physician and three of the
    four VAMC employees still employed. Management planned to take action responsive to the
    recommendation.

•   Another special inquiry found that over 5 years, an employee at a VA facility verbally harassed,
    intimidated, and was generally abusive and threatening to a number of employees. We identified 13
    instances of misconduct, 4 of which involved improper comments of a sexual nature made to female
    employees. The former Director and Associate Director did not effectively confront the employee’s
    performance problems, which led to staff perceptions that management would not resolve
    harassment complaints. Based on this review, actions were taken with respect to the employee’s
    misconduct and local manager’s inaction.

•   A special inquiry found a senior official used insulting and obscene language in conversations about
    employees under his authority. The senior official admitted to “talking trash [sex]” with those who
    broached such subjects. The official discussed rumors, personal relationships, and engaged in
    sexually oriented conversations which did not evidence the courtesy and respect expected among
    VA employees. The senior official’s supervisor concurred with the findings and agreed to take
    appropriate administrative action.

•   Special inquiry staff reviewed 34 allegations received from various sources at one VA facility and
    found that most of the allegations were not substantiated. However, based on a sampling of staff,
    we concluded that the senior official’s management style and actions warranted his supervisor’s
    attention. We also found that the facility purchased photographic prints totaling $104,316 on a sole
    source basis without seeking competition as prescribed by VA procurement procedures. There was
    also a perception among employees who did not support senior management that higher graded
    positions at the facility were generally filled on a non-competitive basis and that higher graded
    positions were reclassified to the benefit of staff who were perceived to be in a “inner circle.” The
    Acting Network Director was taking corrective actions.



1-36
•   Another review found that a senior official used his Government position to accrue over 1.3 million
    frequent flyer miles while traveling for the VA, and converted them into free airline tickets and
    upgrades for his personal use and the use of his family. The official also did not follow certain travel
    regulations and did not restrict the use of his Government credit card to only official purchases. The
    Chief Network Officer decided not to recertify the senior official who exercised his option to take
    an early retirement. We were told the General Counsel is preparing guidance on the use of frequent
    flyer benefits for distribution to all field facilities. The U.S. Attorney and the senior official entered
    into a plea agreement. The official pled guilty to a misdemeanor violation of Title 18, U. S. C.,
    Section 641, agreed to restitution for the loss to the Government totaling $10,824, was fined
    $1,000, and agreed to serve 200 hours of community service.

•   The U.S. General Accounting Office brought two potential violations to our attention. The special
    inquiry substantiated that, in both instances, the recipients did not repay their buyouts when they
    were re-employed by a VAMC. VA is taking action to enhance official’s awareness of the buyout
    requirements.

•   A special inquiry substantiated that three VA officials accepted (and, in one case, solicited) a gift of
    football game tickets from an organization seeking to do business with VA, in violation of the
    ethical conduct standards. We recommended that the three officials reimburse the organization the
    full market value of the tickets each received, and that appropriate administrative action be taken
    against them. The Deputy Under Secretary for Health planned to take responsive action.

•   Special inquiry staff requested phone logs and other information to respond to allegations that a
    senior program official inappropriately used a Government cellular telephone and a Government
    calling charge card for unauthorized purposes. Program officials assisted us in substantiating the
    allegations. VA initiated collection efforts and appropriate administrative action.

•   In another special inquiry case concerning several senior managers, we found minor misuse of the
    phone system. Actions were taken by the supervisors to resolve the conditions identified.

•   Another special inquiry report found that a mid-level manager was subjected to a prohibited
    personnel practice when he was not promoted into a position he was selected for in a timely manner.
    The VA Office of Human Resources Management concurred the employee was entitled to a
    retroactive promotion and other associated benefits back to his classified position in May 1995.

•   We also reported an employee inappropriately filed a false travel claim when he received approval to
    change his duty station. The employee claimed travel for a spouse and her two children, but the
    employee was not legally married.

•   In response to an allegation that a widow was fraudulently receiving Dependency and Indemnity
    Compensation benefits, we confirmed with the assistance of the VARO that the recipient remarried
    and was no longer entitled to the benefits. The award was terminated retroactively to January 1997,
    and an overpayment was established.




                                                                                                     1-37
                 II. OTHER SIGNIFICANT OIG ACTIVITIES

In addition to its operational audit, investigative, contract review, and healthcare inspection roles, the
OIG is responsible for a wide range of other significant activities that contribute to fulfilling the OIG's
overall mission objective. A description of these activities follows.

                                                 HOTLINE
The Hotline staff operates a toll-free telephone service 5 days a week, Monday through Friday, from
5 AM to 10 PM Eastern Time, or individuals can send their concerns in writing (address on back
cover). In addition, the OIG Hotline has a Homepage (http://www.va.gov/oig/hotline/hotline.htm) on
the Internet and E-mail access. Calls, letters, and E-mail are received from employees, veterans, the
general public, the Congress, GAO, and other Federal agencies reporting issues of fraud, waste, and
abuse. Due consideration is given to all complaints and allegations received, with each addressed by
OIG or other Departmental staff and a response provided to the reporting individual.

1. HOTLINE CASES PROCESSED

During the period, the Hotline Section received 10,137 contacts, with 401 cases opened and referred,
and 284 cases closed, as follows:


                                             HOTLINE WORKLOAD
                   Total Contacts                                           10,137
                   Cases opened and referred*                                  401
                       OIG Audit                                                 1
                       OIG Investigations                                       12
                       OIG Hotline and Special Inquiries                         4
                       OIG Healthcare Inspections                               25
                       Other OIG                                                 2
                       VA Program Managers                                     358
                   Cases closed                                                284



       * Some cases referred to more than one office.




                                                                                                       2-1
2. FOUNDED ALLEGATIONS

Of the 284 cases closed during this period, 59 cases (21 percent) contained founded allegations. The
following graph illustrates the percentage of cases warranting corrective actions.


                                                 Unfounded Allegations
                                                 Founded Allegations


                                                                     21%




                                              79%




The majority of the issues associated with the founded allegations concerned management, patient care,
veterans benefits, employee conduct, time and attendance, contract/procurement irregularities, and
property and personal gain. The following table illustrates the number of complaints by category for the
founded allegations.



                                       Founded Hotline Issues By Category of Complaint




                   Management

                    Patient Care

               Veterans Benefits

             Employee Conduct

            Time and Attendance

           Contract/Procurement

          Property/Personal Gain

                                   0             5              10             15        20   25




2-2
As a result of these reviews, VHA managers imposed 32 administrative sanctions (e.g. counselings,
admonishments, reassignments, and terminations) against employees during this reporting period. A
total of $125,387 in monetary improprieties (questioned costs or potential recoveries) were also
identified. Following are examples of allegations that were founded for each of the categories listed on
the preceding table.

Management

•   A review substantiated the Merit Promotion Policy on the seven-calendar day posting requirement
    was not followed. The review also substantiated that the Human Resources Management (HRM)
    Section did not have a consistent procedure for screening or paneling regarding required documents
    and validation of the screening process. The review also found that 47 qualification determination
    documents for a job opportunity announcement were deficient and required correction. However,
    these deficiencies did not impact on the selection. Based on the review, it was recommended that
    HRM policy and orientation be developed to comply with all aspects of the policy, and that the
    HRM staff correct the qualification documents for the job opportunity announcement.

Patient Care

•   A review substantiated allegations that an Eye Clinic employee was conducting personal business
    while scheduled patients were waiting long periods of time for treatment. Management disciplined
    the employee.

Veterans Benefits

•   A review disclosed that a veteran worked at a VAMC under a different name and continued to
    receive VA disability pension benefits. The veteran did not respond to the due process letter sent by
    the VARO, therefore, action was taken to establish a $6,950 overpayment.

Employee Conduct

•   A review substantiated allegations of inappropriate conduct by senior management official. It was
    disclosed that in spite of the fact the manager was provoked, the behavior was not appropriate for a
    VAMC official. The manager recognized his actions were not appropriate and received a verbal
    counseling.

•   A review substantiated the allegation that fifteen employees of the Acquisition and Materiel
    Management service were involved in a football pool. All of the employees were verbally
    counseled, and periodic reminders will be made to reinforce the policy in this regard.

•   A review substantiated two police officers attending 5 days of formal instruction did not attend the
    final day. The two officers were verbally counseled and charged annual leave for the time they were
    absent.




                                                                                                     2-3
Time and Attendance

•     A VAMC Administrative Board of Investigation substantiated a service chief: (i) failed to keep
      proper service staff records for three years of annual and sick leave; (ii) failed to keep proper annual
      leave records for himself; (iii) failed to request and obtain prior approval from the Chief of Staff for
      leave to attend seven conferences; (iv) performed research studies on VA premises without proper
      approval; (v) supplemented the salary of a VA employee with funds from a corporation in violation
      of 18 U.S.C.; and (vi) directed a VA employee to perform work other than official VA business on
      VA property and with VA resources in violation of 5 C.F.R. The service chief was reassigned to
      the position of staff physician and was later given a 30-day suspension from duty and pay.

Contract/Procurement

•     A review substantiated allegations that some errors occurred in the contract actions for ambulance
      service at two VAMC’s. Both medical centers have reported appropriate actions have taken place
      to correct deficiencies since the original contract award.

Property and Personal Gain

•     A review, substantiated that a VA employee received gifts from a fee basis physician. It was
      determined that the gifts were of nominal value and receipt did not violate the ban on receiving gifts.
      There was no evidence presented that the employee violated ethical conduct rules for an executive
      branch employee. The investigators did find a limited understanding of the ethical guidelines on the
      part of the employees interviewed. To avoid the appearance of impropriety, Medical Administration
      Service employees will receive additional training concerning the acceptance of gifts and ethical
      behavior rules for executive branch employees. The VAMC Chief of Staff will discuss, with fee
      basis physicians, VA regulations concerning what constitutes an acceptable courtesy gift to VA
      employees on appropriate occasions.

PRESIDENT’S COUNCIL ON INTEGRITY AND EFFICIENCY (PCIE)
Inspections and Evaluation (I&E) Roundtable

The Assistant Inspector General (AIG) for Healthcare Inspections, has been instrumental in moving the
PCIE Inspections and Evaluation (I&E) Roundtable to a point of developing education and training
needs and opportunities that will address core skills development for the I&E community. The Deputy
AIG/Healthcare Inspections serves as co-chairman of the I&E Roundtable’s Education and Training
Subcommittee.

Federal Audit Executive Council (FAEC)

The AIG for Auditing was elected Chairperson of the FAEC for 1998. The purpose of the FAEC is to
discuss and coordinate on issues affecting the Federal audit community in general, and in particular,
matters affecting audit policy and operations of common interest to FAEC members. In addition, the
AIG represents federal audit principals as a member of the PCIE Audit Committee. Also, the OIG audit
staff participated in a FAEC Benchmarking Working Group. The Working Group developed a database

2-4
of prior audits and evaluations completed by the Federal audit community that used some form of
benchmarking. The database is located in the Benchmarking section of the IGNet “FAEC” page.

  REVIEW AND IMPACT OF LEGISLATION AND REGULATIONS
The OIG reviews existing and proposed legislation and regulations relating to Department programs
and operations. The OIG makes appropriate comments and recommendations concerning the impact of
the legislation and regulations on economy and efficiency in the administration of programs and
operations or the prevention and detection of fraud and abuse.

During this period, 49 legislative and 40 regulatory proposals were reviewed and commented on, as
appropriate.

                     OIG MANAGEMENT PRESENTATIONS
Participation in VHA’s Non-VA Provided Care Task Force

The OIG audit staff participated in the VHA Chief Financial Officer’s task force on “Non-VA Provided
Care”. The goal of the task force is to document the “as is” state of available data and to develop
relevant information on non-VA provided care. As a stakeholder, we contributed information on
existing and needed data elements as they related to CHAMPVA, Fee-Basis, and the IMPAC programs.

Presentation at Medical Care Cost Recovery (MCCR) Conference

VA OIG staff participated in the MCCR National Conference held in Denver, CO, with a presentation
by an Office of Audit project manager on the OIG’s perspectives concerning the MCCR program.

Presentations at Association of Government Accountants (AGA) Conference

The Director of our Kansas City Operations Division conducted a seminar on “Fraud Detection” at the
Dallas/FT Worth AGA Professional Development Conference. The seminar included discussions about
the environment for fraud and included practical exercises in identifying fraud indicators. The Director
also conducted a seminar on electronic workpapers to the Boston Chapter of AGA. The presentation
discussed the pilot test of an electronic workpaper system developed by his office. A similar
presentation was provided to the Northeast Intergovernmental Audit Forum held in Hyannis, MA.

                       OIG CONGRESSIONAL TESTIMONY
In October 1997, the Deputy Inspector General testified before the House Veterans’ Affairs Oversight
and Investigations Subcommittee at a hearing on the results of two Special Inquiry Reports, January 10,
1997, “Alleged Mismanagement of the Housekeeping Quarters at University Drive, VAMC Pittsburgh,
PA,” and “Alleged Mismanagement at the Ralph H. Johnson VAMC Charleston, SC,” and other related
matters. The testimony addressed the results and recommendations of allegations of mismanagement
against senior officials at both VA facilities.



                                                                                                    2-5
In October 1997, and again in March 1998, the Assistant Inspector General for Healthcare Inspections
testified before the House Veterans’ Affairs Committee’s Subcommittee on Health and Hospitals about
the status of health care quality assurance programs, and the adequacy of quality assurance policies, in
VHA. The testimony addressed various aspects of VHA’s continually evolving quality management
programs, and the need for VHA managers to develop or revise quality management policies to address
patient care and patient safety issues as they occur, or as circumstances change. The testimony
addressed the Office of Healthcare Inspections involvement with VHA top managers in developing,
clarifying, and revising quality management policies that must be maintained in order to provide proper,
clear guidance to field facilities and VISNs in a decentralized management environment.

         FREEDOM OF INFORMATION/PRIVACY ACT/OTHER
                   DISCLOSURE ACTIVITIES
During this reporting period, we processed 106 requests under the Freedom of Information and Privacy
Acts and released 222 audit, investigative, and other OIG reports. In three instances we had no records.
We totally denied one request under the appropriate exemptions of the Acts. Information was partially
withheld in 62 requests because release would have constituted an unwarranted invasion of personal
privacy, interfered with enforcement proceedings, disclosed the identity of confidential sources,
disclosed internal Department matters, or was specifically exempted from disclosure by statute.

              OBTAINING REQUIRED INFORMATION OR ASSISTANCE

Sections 5(a)(5) and 6(b)(2) of the Inspector General Act of 1978 require the Inspector General to
report instances where access to records or assistance requested was unreasonably refused, thus
hindering the ability to conduct audits or investigations. During this 6-month period, there were no
reportable instances under these sections of the Act.

Under P.L. 95-452, the IG has authority “ . . . to require by subpoena the production of all information,
documents, reports, answers, records, accounts, papers, and other data and documentary evidence
necessary . . ..” The use of IG subpoena authority has proven valuable in our efforts, especially in cases
dealing with third parties. During this reporting period, 7 subpoenas were issued in conjunction with
various OIG investigations and audits.




2-6
                        III. FOLLOWUP ON OIG REPORTS

                          OIG ROLE AND RESPONSIBILITY
The OIG is responsible for maintaining the Department's centralized, computerized followup system that
provides for oversight, monitoring, and tracking of all OIG recommendations through both resolution and
implementation. Resolution and implementation actions are monitored to ensure that disagreements between
OIG and management are resolved as promptly as possible and that corrective actions are implemented as
agreed upon by management officials. Disagreements unable to be resolved between OIG and management
are decided by the Deputy Secretary, VA's audit followup official.

Management officials are required to provide the OIG with documentation showing the completion of
corrective actions, including reporting of collection actions until the amounts due VA are either collected or
written off. OIG staff evaluate information submitted by management officials to assess both the adequacy
and timeliness of actions and to request periodic updates on an ongoing basis. As of March 31, 1998, the
Department had no unresolved internal OIG recommendation, 279 unimplemented internal OIG
recommendations, and 74 unresolved OIG contract review recommendations.

                 RESOLUTION OF OIG RECOMMENDATIONS
The Inspector General Act Amendments of 1988 require identification of all significant management
decisions with which the Inspector General is in disagreement and all significant and other recommendations
unresolved for over 6 months (management decisions not made). We had no Inspector General
disagreements on significant management decisions and there were no internal audit recommendations
unresolved as of March 31, 1998. Contract report recommendations unresolved for over 6 months are
included in Appendix C.

Following on the next pages are tables which provide a summary of the number of OIG reports with potential
monetary benefits that were unresolved at the beginning of the period, the number of reports issued and
resolved during the period with potential monetary benefits, and the number of reports that remained
unresolved at the end of the period.




                                                                                                          3-1
      SUMMARY OF UNRESOLVED AND RESOLVED OIG AUDITS
As required by the IG Act Amendments, Tables 1 through 5 below provide statistical summaries of
unresolved and resolved audit reports for the period October 1, 1997 – March 31, 1998. The dollar
figures used throughout this report are based on the definitions included in the IG Act Amendments of
1988. The figures are current as of March 31, 1998, and may reflect changes from the data in the
individual reports due to OIG validation to ensure compliance with the IG Act Amendments definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved audit reports and the length of time they have been unresolved.

                    MONTHS              TYPE AUDIT              NUMBER         TOTAL

                                        Internal Audit               0
                      Over
                                                                                  39
                    6 Months
                                        Contract Audit              39

                                        Internal Audit               0
                    Less Than
                                                                                  42
                    6 Months
                                        Contract Audit              42

                                                         TOTAL                    81

Tables 2 through 5 show a total of 67 reports that were unresolved as of March 31, 1998 - no internal
audit reports and 67 contract (postaward and preaward) audit reports. This number differs from the 81
reports shown above because tables 2 through 5 include only reports with monetary benefits as required
by the IG Act Amendments.

Tables 2 through 5 also provide the reports resolved during the period with the OIG estimates of
disallowed costs and funds to be put to better use, including those in which management agreed to
implement OIG recommendations and those in which management did not agree to implement OIG
recommendations. The Assistant Secretary for Management maintains data on the agreed upon reports
and Management estimates of disallowed costs and funds to be put to better use in order to comply with
the reporting requirements for the Secretary's Management Report to Congress, required by the IG Act
Amendments.




3-2
TABLE 2 - RESOLUTION STATUS OF POSTAWARD CONTRACT AUDIT REPORTS

Table 2 summarizes postaward contract audit reports, the dollar value of questioned costs, and the costs
disallowed and allowed.

               RESOLUTION STATUS OF POSTAWARD                                          NUMBER               QUESTIONED
                   CONTRACT AUDIT REPORTS                                                OF                     COSTS
                                                                                       REPORTS               (In Millions)
           No management decision by 9/30/97                                                   3                $ 4.5
           Issued during reporting period                                                      6                $ 7.0
                      Total Inventory This Period                                              9                $ 11.5
           Management decision during reporting period
              Disallowed costs                                                                 6                $ 8.4
              Allowed costs                                                                    0                $ 0.0
                     Total Management Decisions This Period                                    61               $ 8.4
                     Total Carried Over to Next Period                                         32               $ 5.53
1
    Of the 6 reports resolved, the contracting officers agreed with the recommended disallowed costs for 6 reports.
2
    Of the 3 reports carried over, 1 was unresolved for over 6 months as of 3/31/98, with a dollar value of $3.8 million.

3
 The beginning inventory amount ($11.5 million) minus the management decision amount ($8.4 million) does not equal the carryover
amount ($5.5 million) because of a $2.4 million questioned cost increase during the period on a report issued in a prior period.

Definitions:

Ÿ Questioned Costs are contractor or grantee costs OIG recommends be disallowed by the contracting
officer, grant official, or other management official. Costs normally result from a finding that
expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or other
agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

Ÿ Disallowed Costs are costs that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery.
Disallowed costs do not necessarily represent the actual amount of money that will be recovered by the
Government due to unsuccessful collection actions, appeal decisions, or other similar actions.

Ÿ Allowed Costs are amounts on which contracting officers, grant officials, or management officials
have determined that VA will not pursue recovery of funds.




                                                                                                                             3-3
TABLE 3 - RESOLUTION STATUS OF INTERNAL AUDIT REPORTS WITH QUESTIONED COSTS

Table 3 summarizes internal audit reports, the dollar value of questioned costs, and the costs disallowed and allowed.


              RESOLUTION STATUS OF INTERNAL                                    NUMBER             QUESTIONED
                     AUDIT REPORTS                                               OF                   COSTS
                                                                               REPORTS             (In Millions)
        No management decision by 9/30/97                                             0                $ 0
        Issued during reporting period                                                6                $ 1.7
                  Total Inventory This Period                                         6                $ 1.7
        Management decisions during reporting period
          Disallowed costs                                                            6                $ 1.7
          Allowed costs                                                               0                $ 0
                  Total Management Decisions This Period                              6                $ 1.7
                  Total Carried Over to Next Period                                   0                   0


Definitions:

Ÿ Questioned Costs for Internal Audit Reports are amounts paid by VA and unbilled amounts for
which the OIG recommends VA pursue collection, including Government property, services or benefits
provided to ineligible recipients; recommended collections of money inadvertently or erroneously paid
out; and recommended collections or offsets for overcharges or ineligible costs claimed.

Ÿ Disallowed Costs are costs that management officials have determined should not be charged to the
Government or on which management has agreed that VA should bill for property, services, benefits
provided, monies erroneously paid out, overcharges, etc. Disallowed costs do not necessarily represent
the actual amount of money that will be recovered by the Government due to unsuccessful collection
actions, appeal decisions, or other similar actions.

Ÿ Allowed Costs are amounts on which management officials have determined that VA will not pursue
recovery of funds.




3-4
TABLE 4 - RESOLUTION STATUS OF INTERNAL AUDIT REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 4 summarizes internal audit reports with Recommended Funds to be Put to Better Use.

    RESOLUTION STATUS OF INTERNAL AUDIT                      NUMBER         RECOMMENDED
                 REPORTS                                       OF            FUNDS TO BE
                                                             REPORTS        PUT TO BETTER
                                                                            USE (In Millions)
    No management decision by 9/30/97                             0              $   0
    Issued during reporting period                                6              $ 95.8
               Total Inventory This Period                        6              $ 95.8
    Management decisions during reporting period
      Agreed to by management                                     6              $ 95.8
      Not agreed to by management                                 0              $   0
               Total Management Decisions This Period             6              $ 95.8
               Total Carried Over to Next Period                  0              $   0

Definitions:

Ÿ Recommended Better Use of Funds Associated with Internal Audit Reports represents a
quantification of funds that could be used more efficiently if management took actions to complete OIG
recommendations pertaining to deobligation of funds, costs not incurred by implementing recommended
improvements, and other savings specifically identified in audit reports.

Ÿ Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of
funds that will be used more efficiently based on management's agreement to implement actions.

Ÿ Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented.




                                                                                                  3-5
TABLE 5 - RESOLUTION STATUS OF PREAWARD CONTRACT AUDIT REPORTS WITH
          RECOMMENDED FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 5 summarizes preaward contract audit reports with Recommended Funds to be Put to Better Use
by management, and the dollar value of recommendations that were agreed to and not agreed to by
management.

          RESOLUTION STATUS OF PREAWARD                                       NUMBER              RECOMMENDED
             CONTRACT AUDIT REPORTS                                             OF                 FUNDS TO BE
                                                                              REPORTS             PUT TO BETTER
                                                                                                  USE (In Millions)
      No management decision by 9/30/97                                             42                    $102.8
      Issued during reporting period                                                35                    $219.5
               Total Inventory This Period                                          77                    $322.3
      Management decisions during reporting period
        Agreed to by management                                                       6                    $ 1.5
        Not agreed to by management                                                   6                    $ 1.0
               Total Management Decisions This Period                               121                    $ 2.5
               Total Carried Over to Next Period                                    652                  $319.8

1
 Of the 12 reports with recommended funds to be put to better use, management fully agreed with the recommended cost reductions for
3 reports, partially agreed with reductions for 7 reports, and did not agree with the cost reductions on 2 reports.
2
 Of the 65 reports carried over, a management decision had not been made for over 6 months on 35 reports with a dollar value of
$100.6 million.

Definitions:

Ÿ Recommended Better Use of Funds Associated with Preaward Reviews of contracts is the sum of the
questioned and unsupported costs identified in preaward contract audit reports which the OIG recommends be
disallowed in negotiations unless additional evidence supporting the costs is provided. Questioned costs normally
result from findings such as a failure to comply with regulations or contract requirements, mathematical errors,
duplication of costs, proposal of excessive rates, or differences in accounting methodology. Unsupported costs
result from a finding that inadequate documentation exists to enable the auditor to make a determination
concerning allowability of costs proposed.

Ÿ Dollar Value of Recommendations Agreed to by Management is the amount contracting officers disallowed
in negotiations, including the amount associated with contracts that were not awarded as a result of audits.

Ÿ Dollar Value of Recommendations Not Agreed to by Management is the amount of questioned and/or
unsupported costs that contracting officers decided to allow.




3-6
    IV. VA AND OIG MISSION, ORGANIZATION AND RESOURCES

                                VA was established as an independent agency by Executive Order 5398
      VA Establishment          on July 21, 1930, in accordance with Public Law 71-536, Activities for
                                War Veterans, Consolidation and Coordination (Act of July 30, 1930).
                                This Act authorized the President to consolidate and coordinate Federal
agencies especially created for or concerned with the administration of laws providing benefits to
veterans. Under this Act, the Veterans' Bureau, the Bureau of Pensions, and the National Home for
Disabled Volunteer Soldiers were consolidated in VA. Effective March 15, 1989, Public Law 100-527
elevated VA to Cabinet-level status as the Department of Veterans Affairs.

                         The Department's budget authority for FY 1998 is $42.7 billion. Full-time
   VA Resources          equivalent (FTE) employment for the year is 205,931. VA operates medical
                         facilities or regional offices in every State, the District of Columbia, Puerto Rico,
                         Guam, and the Philippines.

                                             VA's mission is to serve America's veterans and their families
      VA Mission and Organization            as their principal advocate in ensuring that they receive the
                                             care, support, and recognition they have earned in service to
                                             the Nation. The Department includes 3 administrations that
provide for the delivery of services and benefits; 5 assistant secretaries and 13 deputy assistant
secretaries who advise and support the Secretary and the administrations; and 6 Department staff offices
that provide specific assistance to the Secretary. Highlights of the services and benefits provided by the
3 administrations follow, based on the FY 1998 current estimates reflected in the FY 1999 Presidential
Budget.

VETERANS BENEFITS ADMINISTRATION (VBA)

To provide benefits in FY 1998, VBA maintains 58 regional offices and 2 insurance centers.

Compensation for service-connected disabilities and death
  2.6 million veterans and survivors will receive continuing benefits valued at about $17.4 billion.

Pensions for income maintenance of veterans and survivors
  .7 million veterans and survivors will receive continuing benefits valued at about $3.1 billion.

Education and training assistance
  Approximately 480,000 trainees will receive education and training assistance payments valued at about
  $1.5 billion.

Housing and other credit assistance
  VA will grant about 240,000 home loans valued at approximately $24.8 billion.

Veterans' and servicemens' life insurance
  The 4.8 million policies in force in VA life insurance programs have a total face value of about $480
  billion.
                                                                                                       4-1
VETERANS HEALTH ADMINISTRATION (VHA)

To provide medical care in FY 1998, VHA maintains 172 hospitals, 602 outpatient clinics (includes
independent, satellite, community-based, and rural outreach clinics), 40 domiciliaries, and 132 nursing home
units.

Hospitals, medical, dental, and outpatient care                         LOCATIONS                PATIENTS
  The average daily census for inpatient facility care is
                                                                Acute hospital care                   8,523
  expected to be 63,446. The locations of the patients
  are shown in the table.                                       Rehabilitative care                   1,154
                                                                Psychiatric care                      6,424
   Also, there will be approximately 35.1 million               Nursing home care                    34,088
   outpatient visits.                                           Subacute care                         3,118
                                                                Residential care                     10,139
Medical and prosthetic research
                                                                 TOTAL INPATIENT CARE                63,446
  The research appropriation is $272 million.

NATIONAL CEMETERY SYSTEM (NCS)

To provide interment services in FY 1998, the NCS operates 115 cemeteries and 34 other sites.

There will be approximately 76,200 interments in national cemeteries and 332,000 headstones or markers will
be provided.

                                      VA's OIG was administratively established on January 1, 1978, to
      VA OIG Establishment            consolidate audit, investigation, and related operations into a cohesive,
                                      independent organization. In October 1978, the Inspector General Act
                                      of 1978 (P.L. 95-452) was enacted and established a statutory Inspector
General (IG) in VA.

                           The Inspector General Act of 1978 states that the IG is responsible for: (1)
    Role and Authority     conducting and supervising audits and investigations, (2) recommending policies
                           designed to promote economy and efficiency in the administration of, and to
                           prevent and detect fraud and abuse in, the programs and operations of the
Department, and (3) keeping the Secretary and the Congress fully informed about problems and deficiencies
in VA programs and operations and the need for corrective action.

The Inspector General Act Amendments of 1988 were enacted in October 1988. The major effect of these
amendments was to provide the OIG with a separate appropriation account and a revised and expanded
procedure for reporting semiannual workload to Congress.

The IG has authority to inquire into all VA programs and activities as well as the related activities of persons
or parties performing under grants, contracts, or other agreements. The inquiries may be in the form of
audits, investigations, contract reviews, inspections, or other appropriate actions. The responsibility for
program integrity rests with VA administration heads and staff offices.



4-2
                     Fiscal Year 1998 funding for OIG operations is $33.4 million, with $31 million from
    Funding          appropriations and $2.4 million through reimbursable agreements. Approximately
                     85 percent of the total funding is for personnel salaries and benefits, 5 percent for official
                     travel, and the remaining 10 percent for all other operating expenses such as contractual
services, rent, supplies, and equipment.

                      The OIG average employment estimate for FY 1998 is 343 FTE. Employees on board
     Staffing         as of March 31, 1998, and the distribution:



                                                                            PERSONS
                                         OFFICE                            EMPLOYED
                      Inspector General's Office                                  4
                      Office of Counselor to IG                                   4
                      Office of Investigations                                   66
                      Office of Audit                                           169
                      Office of Departmental Reviews and                         56
                      Management Support
                      Office of Healthcare Inspections                           19
                                          TOTAL                                 318


The OIG organization chart is presented on the next page.




                                                                                                           4-3
                                                                              DEPARTMENT OF VETERANS AFFAIRS




4-4
                                                                                OFFICE OF INSPECTOR GENERAL

                                                                                                       Inspector General
                                                  Executive Assistant                                  ______________                            Counselor to Inspector General

                                                                                                            Deputy



             Assistant Inspector General
                                                                          Assistant Inspector General                      Assistant Inspector General                            Assistant Inspector General
             Departmental Reviews and
                                                                                 Investigations                                      Auditing                                       Healthcare Inspections
               Management Support
                                                                            __________________                               _________________                                      _________________
               _________________
                                                                                     Deputy                                           Deputy                                                 Deputy
                        Deputy

                                                                                                                                                                    Medical Assessment
                               Policy, Followup                                                                                                                             and
        Hotline and                                              Health Care                      Analysis and
                               and Operational                                                                                                                         Consultation
      Special Inquiries                                            Fraud                           Oversight
                                   Support
                                                                                                                                                                        Patient Care                 Health Systems
                                                                                                                                                                      Inspections and                 Development
                                                                                                                                                                         Evaluation
                                                                                                   Forensic
      Contract Review            Resources
                                                                        Medical                   Documents
       and Evaluation           Management
                                                                                                  Laboratory
                                                                                                                                                             Operations Divisions
                                                                                                                                 Financial Audits              Central Office
                                                                                                                                 and Assistance                   Bedford
                                                                                                                                                                   Atlanta
                                                                  Procurement                 Benefits Fraud                                                      Chicago
                                                                                                                                 Management,                    Kansas City
                                                                                                                                  Policy and                       Seattle
                                                                                                                                 Professional
                                                                                                                                 Development

                                                                                                                                   Technical                     Sub-Offices
                                                                                  Field Offices                                     Support                        Dallas
                                                                                   Northeast                                      Austin Sub-                       Hines
                                                                                   Southeast                                         Office                      Los Angeles
                                                                                    Central                                                                      Philadelphia
                                                                                    Western                                       Planning and
                                                                                                                                   Operational
                                                                                                                                     Support


                                                                              Resident Agencies                                    Financial
                                                                        Atlanta        Boston                                      Statement
                                                                        Columbia       Dallas
                                                                        Houston        Kansas City
                                                                        New Orleans Newark                                           Austin
                                                                        Phoenix        San Francisco                               Sub-Office
                                                                        Washington     W. Palm Beach
                                         APPENDIX A

                           DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                                 REVIEWS BY OIG STAFF

  Report                                                         Funds Recommended
 Number/                                                            For Better Use   Questioned
Issue Date                    Report Title                         OIG    Management   Costs

INTERNAL AUDITS

8R5D05004    Audit of Department of Veterans Affairs Leased          $6,000        $6,000    $1,641,389
10/8/97      Space

8R8D04013    Audit of VA Medical Center Use of Prior Year         $3,810,000    $3,810,000
10/10/97     Funds for Nonrecurring Maintenance Construction
             Projects

8R4A01032    Audit of Allegations Concerning a Research                                         $7,483
10/27/97     Physician at Edward Hines, Jr. Veterans Hospital
             Hines, IL

8R5B01039    Follow-Up Audit of the Assessment of Service-
11/17/97     Connected Disability Determinations

8R5E02046    Audit of Sole Source Contracts VA Medical Center
12/5/97      Las Vegas, NV

8R4A01048    Audit of Veterans Health Administration Medical
12/31/97     Care Usage Patterns and Availability of Resources

8R8A08054    Audit of the Civilian Health and Medical Program     $4,493,229       *
12/31/97     of the Department of Veterans Affairs

8D2E01002    Audit of VA Procurement Initiatives for Computer    $58,000,000   $58,000,000
1/22/98      Hardware, Software, and Services (PCHS/PAIRS)
             and Selected Information Technology Investments

8R4B01069    Audit of Veterans Benefits Administration SSA/VA     $3,964,234    $3,964,234
2/6/98       Death Match Procedures

8R3A01085    Audit of Pathology and Laboratory Medicine
3/25/98      Service's Laboratory Management Index Program
             (LMIP)

8R4E01092    Audit of VA's Pharmaceutical Prime Vendor
3/31/98      Program

* Management did not provide an alternative estimate.


                                                                                                  A-1
Report                                                              Funds Recommended
 Number/                                                               For Better Use   Questioned
Issue Date                    Report Title                            OIG    Management   Costs

OTHER OFFICE OF AUDIT REVIEWS

8R1G01008    Evaluation of Medical Care Cost Recovery
10/3/97      Program, VA Medical Center Brockton/W.
             Roxbury, MA
8R4A07027    Review of Multi-State Nursing Home Contracts
10/20/97

8R1B12036    Evaluation of Premium Payment and Reporting
10/31/97     Procedures for the Servicemembers' Group Life
             Insurance Program

8D2B01001    Summary Report on VA Claims Processing Issues
12/9/97

8R1B12056    Evaluation of Controls Over Disbursements of
1/16/98      Matured Endowment Life Insurance Awards

8R8A19061    Evaluation of VA Capital Programming Practices
1/28/98      and Initiatives

8R1B01083    Evaluation of the Effectiveness of Veterans Benefits   $25,531,991 *$19,487,635
3/24/98      Administration's Controls to Detect and Prevent
             Compensation and Pension Benefit Payment Errors


SPECIAL INQUIRY

8PRA99003    Alleged Inaction by Management to Resolve Sexual
10/3/97      Harassment Complaints VA Medical Center Grand
             Island, NE

8PRA19040    Management Practices and Other Issues at the Spark
12/2/97      M. Matsunaga VA Medical and Regional Office
             Center Honolulu, HI

8PRA19045    Alleged Receipt of Improper Salary Supplements,
12/23/97     Department of Veterans Affairs, Edward Hines
             Junior Hospital Hines, IL

8PRA03058    Hotline Inquiry Into an Alleged False Travel Claim                                $9,283
1/14/98      by an Employee at the VA Medical Center Decatur,
             GA

8PRG02065    Alleged Prohibited Personnel Action at the Harry S.
2/13/98      Truman Veterans Memorial Hospital, Columbia,
             MO

* Management disagreed with OIG estimate.

A-2
Report                                                             Funds Recommended
 Number/                                                              For Better Use   Questioned
Issue Date                   Report Title                            OIG    Management   Costs

SPECIAL INQUIRY (Con’t)

8PRB18071    Alleged Misuse of Government Resources by a                                      $291
2/13/98      Senior VBA Official

8PRA99076    Conduct Issue Concerning a Veterans Health
3/6/98       Administration Program Official in VA Central
             Office, Washington, DC

8PRG07079    Alleged Mismanagement and Misuse of the Federal
3/9/98       Telephone System by VHA Officials

8PRF03077    Alleged Violations of the Federal Workforce
3/16/98      Restructuring Act of 1994 by Department of
             Veterans Affairs Employees

8PRG03078    Alleged Misconduct and Misuse of Resources
3/16/98      Emergency Management Strategic Healthcare
             Group VA Martinsburg, WY

8PRF05057    Use of Government Earned Frequent Flyer Miles by                               $10,824
3/25/98      a Senior Official at the Spark M. Matsunaga VA
             Medical and Regional Office Center Honolulu, HI

8PRB01087    Hotline Inquiry Into the Alleged Fraudulent Receipt                             $4,998
3/25/98      of Dependency and Indemnity Compensation
             Benefits


HEALTHCARE INSPECTIONS

8HIA28017    Quality Program Assistance Review, VA Medical
10/9/97      Center Iowa City, IA

8HIA28018    Inspection of Selected Clinical and Administrative
10/27/97     Issues, Department of Veterans Affairs Medical
             Center Lake City, FL

8HIA28035    Oversight Review of the Veterans Health
11/3/97      Administration's Use of Advanced Practice Nurses
             in Primary Care

8HIA28031    Inspection of Alleged Inappropriate Proposed
11/5/97      Extended Care Discharge Department of Veterans
             Affairs Medical and Regional Office Center
             Cheyenne, WY

8HIA28042    Quality Program Assistance Review, Department of
11/18/97     Veterans Affairs Medical Center Dublin, GA


                                                                                              A-3
Report                                                             Funds Recommended
 Number/                                                              For Better Use   Questioned
Issue Date                   Report Title                            OIG    Management   Costs

HEALTHCARE INSPECTIONS (Con’t)

8HIA28047    Quality Program Assistance Review VA Medical
12/10/97     Center Loma Linda, CA

8HIA28051    Quality Program Assistance Review VA Medical
12/29/97     Center Tucson, AZ

8HIA28041    Inspection of Alleged Inappropriate Patient Care
1/16/98      and Misdiagnosis of a Patient's Illness, Department
             of Veterans Affairs Medical Center Northampton,
             MA

8HIA28060    Followup Inspection of Selected Clinical and
1/29/98      Administrative Issues on Anesthesiology Service,
             Hunter Holmes McGuire VA Medical Center
             Richmond, VA

8HIA28069    Review of Veterans Health Administration's
2/4/98       National Customer Feedback Center, Department of
             Veterans Affairs Medical Center West Roxbury,
             MA

8HIA28072    Quality Management in the Department of Veterans
2/17/98      Affairs, Veterans Health Administration

8HIF03073    Quality Program Assistance Review, Department of
2/23/98      Veterans Affairs Medical Center Lexington, KY

8HIA28075    Inspection of Alleged Patient Neglect and
2/23/98      Inadequate Care, Department of Veterans Affairs
             Medical Center Syracuse, NY

8HIA28080    Inspection of Alleged Patient Sexual Molestation by
3/9/98       a Physician at a VA Outpatient Clinic

8HIA28090    Inspection of Alleged Mismanagement of a Nursing
3/26/98      Home Patient's Discharge, Department of Veterans
             Affairs Medical Center Biloxi, MS

8HIA28091    Inspection of Alleged Improper Leg Ulcer
3/26/98      Treatment, Jerry L. Pettis Memorial Veterans
             Hospital Loma Linda, CA




A-4
Report                                                             Funds Recommended
 Number/                                                              For Better Use   Questioned
Issue Date                    Report Title                           OIG    Management   Costs

CONTRACT REVIEWS

8PEE02005     Review of Federal Supply Schedule Proposal                               *
10/2/97       (Solicitation Number M5-Q50-97), Ortho Biotech,
              Inc., Piscataway, NJ

8PEE02006     Review of Federal Supply Schedule Proposal             $3,684,555
10/2/97       (Solicitation Number M5-Q50-97), Roxane
              Laboratories, Inc., Columbus, OH

8PEE02007     Review of Federal Supply Schedule Proposal
10/2/97       (Solicitation Number M5-Q50-97), Hoechst Marion
              Roussel, Inc., Kansas City, KS

8PEE02012     Review of Federal Supply Schedule Proposal
10/8/97       (Solicitation Number M5-Q50-97) Alcon
              Laboratories, Inc., Forth Worth, TX

8PEE02009     Review of Federal Supply Schedule Proposal               $723,320
10/9/97       (Solicitation Number M5-Q50-97) Bristol Myers
              Squibb, Oncology Division, Princeton, NJ

8PEE02010     Review of Federal Supply Schedule Proposal
10/9/97       (Solicitation Number M5-Q50-97) Ortho McNeil
              Pharmaceutical, Piscataway, NJ

8PEE02011     Review of Federal Supply Schedule Proposal             $2,702,463
10/9/97       (Solicitation Number M5-Q50-97) Nycomed, Inc.,
              Princeton, NJ

8PEE02014     Review of Federal Supply Schedule Proposal             $7,538,677
10/9/97       (Solicitation Number M5-Q50-97), Bristol Myers
              Squibb, Primary Care Division, Princeton, NJ

8PEE02021     Review of Federal Supply Schedule Proposal             $7,893,240
10/16/97      (Solicitation Number M5-Q50-97) Boehringer
              Ingelheim Pharmaceuticals, Inc., Ridgefield, CT

8PEE02024     Review of Federal Supply Schedule Proposal            $92,037,146
10/17/97      (Solicitation Number M5-Q50-97), Schering
              Corporation, Union, NJ

8PEE02015     Review of Federal Supply Schedule Proposal            $17,084,449
10/20/97      (Solicitation Number M5-Q50-97), Ortho
              Pharmaceutical Corporation, Raritan, NJ


* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these reviews are
determined when the OIG receives the contracting officer’s decision on the report recommendations.


                                                                                                          A-5
 Report                                                        Funds Recommended
 Number/                                                          For Better Use   Questioned
Issue Date                   Report Title                        OIG    Management   Costs

CONTRACT REVIEWS (Con’t)

8PEE02022    Review of Federal Supply Schedule Proposal         $1,512,098
10/20/97     (Solicitation Number M5-Q50-97) Bracco
             Diagnostics, Inc., Princeton, NJ

8PEE02025    Review of Federal Supply Schedule Proposal
10/20/97     (Solicitation Number M5-Q50-97) Zeneca
             Pharmaceuticals, Wilmington, DE

8PEE02020    Review of Federal Supply Schedule Proposal
10/21/97     (Solicitation Number M5-Q50-97), Fujisawa USA
             Inc., Deerfield, IL

8PEE02028    Review of Federal Supply Schedule Proposal         $4,144,520
10/21/97     (Solicitation Number M5-Q50-97) Teva
             Pharmaceuticals USA, Sellersville, Pa

8PEE02029    Review of Federal Supply Schedule Proposal         $1,266,297
10/21/97     (Solicitation Number M5-Q50-97) SmithKline
             Beecham, Philadelphia, PA

8PEE02030    Review of Federal Supply Schedule Proposal
10/21/97     (Solicitation Number M5-Q50-97), Abbott
             Laboratories Pharmaceutical Products Division,
             Abbott Park, IL

8PEE02016    Review of Federal Supply Schedule Proposal
10/22/97     (Solicitation Number M5-Q50-97) Eli Lilly and
             Company, Indianapolis, IN

8PEE02026    Review of Federal Supply Schedule Proposal         $7,869,022
10/30/97     (Solicitation Number M5-Q50-97), Novartis
             Pharmaceuticals Corporation, East Hanover, NJ

8PEE02033    Review of Federal Supply Schedule Proposal
11/4/97      (Solicitation Number M5-Q50-97) Rugby
             Laboratories, Inc., Norcross, GA

8PEE02037    Review of Federal Supply Schedule Proposal        $41,002,848
11/5/97      (Solicitation Number M5-Q50-97) Glaxo-Wellcome,
             Triangle Park, NC

8PEE02038    Review of Federal Supply Schedule Proposal         $5,932,784
11/5/97      (Solicitation Number M5-Q50-97) Abbott
             Laboratories Hospital Products Division, Abbott
             Park, IL




A-6
  Report                                                           Funds Recommended
 Number/                                                              For Better Use   Questioned
Issue Date                   Report Title                            OIG    Management   Costs

CONTRACT REVIEWS (Con’t)

8PEE09043    Audit of Equitable Adjustment Claim Submitted by         $518,677
11/26/97     American Imaging Services, Inc., Contract Number
             V672p-2172 and V672p-2196, Clearwater, FL

8PEE02044    Review of Hoffman LaRoche, Inc.'s Voluntary                                  $3,109,926
12/1/97      Disclosure of Pricing Violations Under Federal
             Supply Schedule Contracts V797p-5759m and
             V797p-5524m

8PEE02050    Review of Voluntary Refund Offer by Behring                                   $908,166
12/8/97      Diagnostics, Inc., Federal Supply Schedule Contract
             No. V797p-5150n

8PEE02052    Review of SCA Molnlycke's Voluntary Disclosure                                $993,270
12/24/97     and Refund Offer Under Federal Supply Schedule
             Contract Number V797p-3572j

8PEE02049    Review of Federal Supply Schedule Proposal             $7,507,421
1/5/98       (Solicitation Number M5-Q50-97), Zenith Goldline
             Pharmaceuticals, Fort Lauderdale, FL

8PEE02055    Review of Federal Supply Schedule Proposal
1/26/98      (Solicitation Number M3-Q3-97) Dentsply Caulk,
             Milford, DE

8PED02062    Review of Architect Engineer Proposals, VA
1/27/98      Project Number 541-039b, Spice Costantino
             Architects, Inc., Cleveland, OH

8PEE02063    Review of Federal Supply Schedule Proposal               $294,535
1/28/98      (Solicitation Number M3-Q3-92) Graphic Controls
             Corporation, Buffalo, NY

8PEE02064    Review of Federal Supply Schedule Proposal             $9,207,294
2/9/98       (Solicitation Number M5-Q50-97) McGaw
             Incorporated, Irvine, CA

8PEE02068    Review of Federal Supply Schedule Proposal
2/9/98       (Solicitation Number M5-Q50-97), Mallinckrodt
             Medical Inc., St. Louis, MO

8PEE02059    Review of Pfizer Pharmaceuticals' Implementation                               $40,844
2/20/98      of Section 603 Drug Pricing Provisions of Public
             Law 102-585 Under Federal Supply Schedule
             Contract Number V797p-5547m



                                                                                               A-7
Report                                                            Funds Recommended
 Number/                                                             For Better Use   Questioned
Issue Date                   Report Title                           OIG    Management   Costs

CONTRACT REVIEWS (Con’t)

8PEE10070    Postaward Audit of Federal Supply Schedule                                           $223,478
2/20/98      Contract V797p-5543m Awarded To Burroughs
             Wellcome Co., Research Triangle Park, NC

8PEE02074    Review of Federal Supply Schedule Proposal               $91,969
3/4/98       (Solicitation Number M3-Q3-97), Gendex Dental X-
             Ray, Division of Dentsply International, Inc., Des
             Plaines, IL

8PEE02053    Review of Structural Design Problems at the New
3/16/98      VA Regional Office Bay Pines, FL

8PEE02084    Review of Federal Supply Schedule Proposal            $2,468,847
3/19/98      (Solicitation Number M3-Q4-97) Medrad, Inc.,
             Indianola, PA

8PEE02081    Review of Federal Supply Schedule Proposal            $3,126,441
3/23/98      (Solicitation Number M3-Q3-92, Open Season IV)
             Howmedica, Inc., Pfizer Hospital Products Group,
             Rutherford, NJ

8PEE10082    Audit of Claims and Requests for Equitable              $394,154
3/25/98      Adjustments Submitted by Bay Construction
             Company, Contract Number V662c-1439

8PEE10088    Postaward Review of Federal Supply Schedule                                        $1,700,000
3/25/98      Contract V797p-5548m Awarded to Schein
             Pharmaceutical, Inc., Florham Park, NJ

8PEE02089    Review of Federal Supply Schedule Proposal
3/31/98      (Solicitation Number M3-Q3-97), Midwest Dental
             Products Corporation (a Wholly Owned Subsidiary
             of Dentsply International, Inc.) Des Plaines, IL

TOTAL:                         87 Reports                      *$312,806,211    $85,267,869   $8,649,952


* The difference between the OIG and Management estimates is $227,538,342. The difference is
explained as follows: Pending receipt of contracting officer’s decision - $217,000,757; Management
disagreed with OIG estimate - $6,044,356; Management did not provide an alternative estimate -
$4,493,229.




A-8
                                       APPENDIX B

                       DEPARTMENT OF VETERANS AFFAIRS
                         OFFICE OF INSPECTOR GENERAL
                     CONTRACT REVIEWS BY OTHER AGENCIES

  Report
 Number/                                                                      Questioned Unsupported
Issue Date                        Report Title                                  Costs       Costs

7PEN03122    Claims, Contract No. V101p(93)-1401, Telephone System,                $72,566
11/13/97     VAMC Kansas City, MO, American Business Communications,
             Kansas City, MO

7PEN03148    Proposal, RFP 640-118-97, Renovate Building 7, Palo Alto Div.,
11/13/97     VAMC Mountain View, Ratto Construction, Palo Alto, CA

7PEN03011    Proposal, Exchange of Use, RFP 657-10-97, Pet Scanner                 $20,049   $517,850
12/1/97      Services, VAMC St. Louis, St. Louis Univ. Health Science
             Center, St. Louis, MO

7PEN03012    Proposal, RFP 598-29-97, Cardiac Surgery/Perfusionist Service,        $45,064   $478,687
12/1/97      University of Arkansas for Med. Service, Little Rock, AR

7PEN03013    Proposal, RFP 527-25-97, Radiology Services, State University of      $10,346    $13,076
12/1/97      New York (SUNY), Brooklyn, NY

7PEN03014    Proposal, RFP 648-23-97, Radiation Oncology Services, Oregon          $17,850   $127,920
12/1/97      Health Sciences University, Portland, OR

7PEN02007    Proposal, Project No. 672-045, Change Order Outpatient Clinic        $284,827
12/9/97      Addition, VAMC San Juan, J. A. Jones Construction Co., San
             Juan, PR

7PEN03135    Proposal, Project No. 532-97-125, Telecom Infrastructure,             $28,910
12/9/97      VAMC Canandaigua, Telecommunication Bank, Inc., Rochester,
             NY

8PEN03102    Proposal, RFP No. 689-94-97, Const. Outpatient Pharmacy,
12/15/97     VAMC W. Haven, United Stone America, Inc., Hartford, CT

8PEN03103    Proposal, RFP No. 688-58-97, Renovate Patient Privacy, VAMC
12/15/97     Washington, AEC Services, Inc., Rockville, MD

7PEN03127    Proposal, RFP No. 688-51-97, Renovation & Expansion, VAMC
1/5/98       Washington, Venus Construction Corporation, Temple Hills, MD

7PEA11003    A-128, Fiscal Year Ended 6/30/96, State Home Construction and
1/6/98       Nursing Home Care, Maine Veterans' Homes, Augusta, ME




                                                                                                B-1
Report
 Number/                                                                       Questioned Unsupported
Issue Date                        Report Title                                   Costs       Costs

7PEN03126    Proposal, Solicitation No. 561-25-96, Telephone Conduit, VAMC          $32,286
1/6/98       East Orange, NJ, Imperial Construction & Electric, Inc.,
             Hillside, NJ

7PEN03147    Proposal, 516-090-97, Replace Roof, VAMC Bay Pines, FL                 $38,652
1/6/98       G.E.C. Associates, Inc., Miami, FL

8PEA11038    A-128, Fiscal Year Ended 6/30/96, Domiciliary & Nursing
1/7/98       Home Care Grant, Arkansas Dept. of Veterans Affairs, North
             Little Rock, AK

8PEG06039    A-128, Fiscal Year Ended 6/30/96, Domiciliary & Nursing
1/7/98       Home Care, State Approving Agency Contract, State of South
             Dakota, Pierre, SD

8PEG06046    A-128, Fiscal Year Ended 6/30/96, State Approving Agency
1/7/98       Contract, Statehome Construction & Nursing Home Care, State
             of Idaho, Boise, ID

7PEG06058    A-128, Fiscal Year Ended 6/30/95, State Approving Agency
1/8/98       Contract, Statehome Construction and Nursing Home Care, State
             Of Idaho, Boise, ID

8PEG06040    A-128, Fiscal Year Ended 6/30/96, State Home Construction,
1/8/98       Vocational Training, State Approving Agency Contracts, State of
             Wisconsin, Madison, Ws

8PEN02103    Proposal, Project No. 612-100 A/E, VAMC Matherfield, Nacht &           $58,206
2/23/98      Lewis Architects, Sacramento, CA

8PEN03104    Proposal, Contract No. V689P-2356, Ambulance Service, VAMC            $127,909
2/23/98      West Haven, Hunter's Ambulance Service, Inc Meriden, CT

8PEN02104    Proposal, Project No. 506027F, A/E, VAMC Ann Arbor, Harley             $86,111
2/23/98      Ellington Design, Southfield, MI

8PEN03108    Proposal, RFP No. 688-57-97, Renovate Main Entrance, VAMC              $21,962
3/19/98      Washington, William D. Euille & Associates, Inc., Alexandria,
             VA

8PEN03110    Proposal, Project No. 543-015, Sprinkler & Fire Alarm Project,        $503,356
3/19/98      VAMC Columbia, Fire Security Systems, Inc., Bossier City, LA

TOTALS:      24 Reports                                                           $1,348,094   $1,137,533

The Defense Contract Audit Agency (DCAA) completed 18 of the 24 reports issued, with Questioned Costs
totaling $1.3 million. This data is also reported in the DoD OIG's Semiannual Report to Congress.




B-2
                                           APPENDIX C
              CONTRACT AUDIT REPORTS FOR WHICH A CONTRACTING
                OFFICER DECISION HAD NOT BEEN MADE FOR OVER
                        6 MONTHS AS OF MARCH 31, 1998

                                                                               Reason for Delay
                                                  Questioned   Better Use      and Planned Date
 Report Title, Number, and Issue Date               Costs       of Funds         for a Decision

 Contract Reviews by OIG

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Preaward Review of Federal Supply Schedule                      $1,755,575    Pending receipt of
Proposal Submitted by Johnson & Johnson                                       Contracting Officer Price
Healthcare Systems, Inc., Codman Division,                                    Negotiation Memorandum
Piscataway, NJ, 7PE-E12-081, 5/6/97                                           (PNM).

Preaward Review of Federal Supply Schedule                      $4,570,800    Pending receipt of PNM.
Proposal Submitted by Johnson and Johnson
Healthcare Systems, Inc., Ethicon Inc.,
Piscataway, NJ, 7PE-E12-088, 5/20/97

Preaward Review of Federal Supply Schedule                                    Pending receipt of PNM.
Proposal Submitted by Johnson and Johnson
Healthcare Systems, Inc., Ethicon Endo Surgery,
Inc., Piscataway, NJ, 7PE-E02-092, 6/6/97

Review of Federal Supply Schedule Proposal                         $964,241   Pending receipt of PNM.
(Solicitation No. M5-Q53-97) Ecolab Inc., St.
Paul, MN, 7PE-E02-093, 6/13/97

Preaward Review of Federal Supply Schedule                      $10,806,808   Pending receipt of PNM.
Proposal Submitted by Johnson and Johnson
Healthcare Systems, Johnson and Johnson Medical
Inc., Piscataway, NJ, 7PE-E02-094, 7/11/97

Review of Federal Supply Schedule Proposal                       $5,918,105   Pending receipt of PNM.
(Solicitation No. M3-Q3-92) Johnson and Johnson
Healthcare Systems Inc., Cordis Corporation and J&J
Interventional Systems, Piscataway, NJ, 7PE-E12-
107, 7/24/97

Review of Federal Supply Schedule Proposal                       $1,919,827   Pending receipt of PNM.
(Solicitation No. M5-Q50-97) Pharmacia & Upjohn,
Kalamazoo, MI, 7PE-E02-123, 9/3/97

Review of Federal Supply Schedule Proposal                       $5,484,450   Pending receipt of PNM.
(Solicitation No. M5-Q50-97) Wyeth-Ayerst
Laboratories, Philadelphia, PA, 7PE-E02-127,
9/4/97
                                                                                                  C-1
                                                                               Reason for Delay
                                                  Questioned   Better Use      and Planned Date
 Report Title, Number, and Issue Date               Costs       of Funds         for a Decision

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT (Con’t)

Review of Federal Supply Schedule Proposal                                    Pending receipt of PNM
(Solicitation No. M5-Q50-97) Sanofi
Pharmaceuticals, Incorporated, New York, NY,
7PE-E02-120, 9/5/97

Review of Federal Supply Schedule Proposal                        $733,529    Pending receipt of PNM.
(Solicitation No. M5-Q50-97) Dupont Merck
Pharmaceutical Co., Wilmington, DE, 7PE-E02-132,
9/16/97

Review of Federal Supply Schedule Proposal                       $2,718,799   Pending receipt of PNM.
(Solicitation No. M5-Q50-97), Schein
Pharmaceutical Inc., Florham Park, NJ, 7PE-E02-
134, 9/17/97

Review of Federal Supply Schedule Proposal                      $2,791,444    Pending receipt of PNM.
(Solicitation No. M5-Q50-97), Rhone-Poulenc Rorer,
Inc., Collegeville, PA, 7PE-E02-136, 9/17/97

Review of Federal Supply Schedule Proposal                      $3,580,134    Pending receipt of PNM.
(Solicitation No. M5-Q50-97), Bayer Corporation
Pharmaceutical Division, West Haven, CT,
7PE-E02-130, 9/23/97

Review of Federal Supply Schedule Proposal                        $522,415    Pending receipt of PNM.
(Solicitation No. M5-Q50-97), Janssen
Pharmaceutical Inc., Piscataway, NJ, 7PE-E02-138,
9/24/97

Review of Federal Supply Schedule Proposal                         $69,091    Pending receipt of PNM.
(Solicitation No. M5-Q50-97), Roche Laboratories,
Inc., Nutley, NJ, 7PE-E02-141, 9/24/97

Review of Federal Supply Schedule Proposal                      $8,624,775    Pending receipt of PNM.
(Solicitation No. M5-Q50-97), Parke-Davis Division
of Warner-Lambert Co., Morris Plains, NJ,
7PE-E02-142, 9/24/97

Review of Federal Supply Schedule Proposal                      $2,525,457    Pending receipt of PNM.
(Solicitation No. M5-Q50-97), G. D. Searle and Co.,
Managed Care Contracts, Chicago, IL, 7PE-E02-
147, 9/30/97




 C-2
                                                                               Reason for Delay
                                                  Questioned    Unsupported    and Planned Date
 Report Title, Number, and Issue Date               Costs         Costs          for a Decision

 Contract Reviews by Other Agencies

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Postaward FSS Contract No. V797P-3113J,            $3,800,000                 Resolution planned for next
Medical Equipment, Audit 9/30/90-11/30/92,                                    reporting period.
Invacare Corporation, Elyria, OH, 2PE-E10-072,
10/1/93

Claim, Contract No. V554C-684, Laundry Chute,                                 Claim under review; no
VAMC Denver, CO, Hughes-Groesch Construction                                  planned resolution date
Co., Inc. Denver, CO, 7PE-N03-130, 3/31/97                                    available.

Proposal, RFP 614-51-96 Radiologists, VAMC            $6,167      $541,483    Negotiation not finalized;
Memphis, University of Tennessee, Memphis, TN,                                resolution planned for next
7PE-N03-003, 5/2/97                                                           reporting period.

Proposal, RFP 614-41-96, Anesthesiologists,                       $906,586    Pending receipt of CORR
VAMC Memphis, University of Tennessee,                                        documenting disposition of
Memphis, TN, 7PE-N03-002, 5/5/97                                              unsupported cost.

Claim, Contract V101DC-0048, Expand/Renovate       $1,469,934                 Claim in appeal; planned
Bldg-1, VAMC Salt Lake, Interwest Construction,                               resolution date not
Salt Lake City, UT, 7PE-N03-114, 9/30/97                                      available.

 OFFICE OF FACILITIES MANAGEMENT

Change Order, Contract No. V101BC-0026, 120-        $856,257       $32,664    Pending receipt of
Bed Nursing Home Care Unit, VAMC New                                          information documenting
Orleans, Broadmoor/Boh, A Joint Venture, New                                  disposition of questioned
Orleans, LA, 2PE-N02-104, 10/28/92                                            and unsupported cost.

Change OR/FR 10 Contract No. V101BC0053             $126,130                  Negotiation not finalized;
VAMC Atlanta, GA Caddell Construction,                                        resolution planned for next
Masterclean, Incorporated, Decatur, GA,                                       reporting period.
3PE-N02-111, 11/16/93

Claim, Contract No. V200C-003, Renovate Space,       $95,235                  Pending receipt of CORR
VAAC Austin, O'Neal Construction, Inc., Austin,                               documenting disposition of
TX, 4PE-D99-035, 2/17/94                                                      questioned costs.




                                                                                                    C-3
                                                                                    Reason for Delay
                                                     Questioned      Unsupported    and Planned Date
 Report Title, Number, and Issue Date                  Costs           Costs          for a Decision

 OFFICE OF FACILITIES MANAGEMENT (Con’t)

Claim, Contract No. V101BC0026, 120 Bed                 $727,576                   Pending receipt of
Nursing HCU/Parking, VAMC New Orleans                                              information documenting
Broadmoor/BOH, Metairie, LA, 4PE-N02-102,                                          disposition of Questioned
8/9/94                                                                             and unsupported cost.

Adjustment Claim, V101C-1606, Construction              $271,599                   Negotiations not finalized;
Services, VAMC Albany, Bhandari Constructors,                                      contractor is to submit
Inc., Syracuse, NY, 5PE-N02-007, 3/31/95                                           additional support
                                                                                   documentation; no planned
                                                                                   resolution date available.

Claim, Contract No. V101C-1651, Environment            $7,370,861                  In discussion on monetary
Improvements, VAMC North Chicago, Blount Inc.,                                     resolution; no planned
4PE-N02-202, 2/7/96                                                                resolution date available.

Claim, Contract V101C-1532, Asbestos Removal,           $875,708        $1,898     Negotiation not finalized;
VAMC W. Roxbury, Saturn Construction Co. Inc.,                                     resolution planned for next
Valhalla, NY, 5PE-N02-006, 2/23/96                                                 reporting period.

Claim, Project No. 632-062, 120 Bed Nursing             $1,623,126                 Negotiation not finalized;
Home Care Unit, VAMC Northport, J.F. O'Healy                                       resolution planned for next
Construction Corporation, Bayport, NY,                                             reporting period.
3PE-N02-001, 3/26/96

Claim, Project No. 642-034C, Clinical                    $512,961                  Pending receipt of CORR
Addition/Parking Structure, VAMC Philadelphia                                      documenting disposition of
Charles Shaid Company of Pennsylvania, Inc.,                                       questioned costs.
Clarksboro, NJ, 5PE-N02-002, 8/26/96

Claim, Contract V101BC0036; Defect. Drawings,          $3,363,356                  Negotiation not finalized;
VAMC Palm Beach County, FL, Clark                                                  no planned resolution date
Construction Group, Inc., Hollywood, FL                                            available.
6PE-N02-106; 11/06/96

Claim, Project No. 553-808, Replacement Hospital      $11,952,726                  Negotiation not finalized;
VAMC Detroit, MI, Bateson/Dailey,                                                  no planned resolution date
Dallas TX, 6PE-N02-204, 12/11/96                                                   available.

Claim, Contract No. V101C-1603,                        $1,120,170                  Negotiation not finalized;
Install Sprinklers, VAMC Boston,                                                   no planned resolution date
L. Addison & Associates, Inc., Wakefield, MA,                                      available.
6PE-N02-108, 12/19/96

Claim, Project No. 690-035 MFI Addition, VAMC            $724,755                  Negotiation not finalized;
Brockton, Saturn Construction Co., Inc., Valhalla,                                 no planned resolution date
NY, 6PE-N02-001, 5/19/97                                                           available.



 C-4
                                                                                  Reason for Delay
                                                    Questioned     Unsupported    and Planned Date
 Report Title, Number, and Issue Date                 Costs          Costs          for a Decision

 OFFICE OF THE GENERAL COUNSEL

Claim, Contract No. V539C-591,                         $131,932                  Contract in litigation; no
Install Incinerator, VAMC Cincinnati,                                            planned resolution date
R.E. Schweitzer Construction, Cincinnati, OH,                                    available.
4PE-N03-113, 6/21/94

Claim, Equitable Adjustment, A/J Contract No.           $57,947                  Contract in litigation; no
V657C-1110, Install Energy Management System,                                    planned resolution date
VAMC St. Louis, Landis & GYR Powers, Inc.,                                       available.
Maryland Heights, MD, 4PE-N03-117, 9/30/94

Claim, Contract No. V657C-1103; Replace HVAC,           $90,437                  Claim in litigation; no
VAMC St. Louis, Gross Mechanical Contractors,                                    planned resolution date
Inc., St. Louis, MO, 6PE-N03-119, 10/24/96                                       available.

Proposal, Project No. 549-085, Clinical Addition,    $14,804,392                 Negotiation not finalized;
VAMC Dallas, Centex Construction Company,                                        no planned resolution date
Inc., Dallas, TX, 7PE-N02-303, 5/20/97                                           available.




                                                                                                        C-5
                                          APPENDIX D

               REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978 (Public Law 95-452), as amended by the Inspector General Act
Amendments of 1988 (Public Law 100-504), to the specific pages where they are addressed.

 IG Act
References                               Reporting Requirement                                        Page

Section 4 (a) (2)    Review of legislation and regulations                                             2-5

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                  1-1 to 1-37

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and               1-1 to 1-37
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been         3-1
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and          v
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                2-6

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of questioned     A-1 to B-2
                     costs and recommendations that funds be put to better use

Section 5 (a) (7)    Summary of each particularly significant report                                   i to iv

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of questioned     3-3 and 3-4
                     costs for unresolved, issued, and resolved reports

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                3-5 and 3-6
                     recommendations that funds be put to better use for unresolved, issued, and
                     resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for which no   C-1 to C-5
                     management decision was made by end of reporting period

Section 5 (a) (11)   Significant revised management decisions                                          None

Section 5 (a) (12)   Significant management decisions with which the Inspector General is in           None
                     disagreement




                                                                                                                 D-1
      Copies of this report are available to the public. Written requests should be sent to:

             Office of the Inspector General (53B)
             Department of Veterans Affairs
             810 Vermont Avenue, NW
             Washington, DC 20420


      The report is also available on our Web Site:

             http://www.va.gov/oig/53/semiann/reports.htm




D-2
